<html>
<title> - RECOVERY AND PRESERVATION OF NATIVE AMERICAN LANGUAGES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





                      RECOVERY AND PRESERVATION OF
                       NATIVE AMERICAN LANGUAGES

=======================================================================

                             FIELD HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

              August 31, 2006, in Albuquerque, New Mexico

                               __________

                           Serial No. 109-55

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 _____

                    U.S. GOVERNMENT PRINTING OFFICE
                           WASHINGTON : 2006 
29-628 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001


                COMMITTEE ON EDUCATION AND THE WORKFORCE

            HOWARD P. ``BUCK'' McKEON, California, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California,
    Chairman                           Ranking Minority Member
Michael N. Castle, Delaware          Dale E. Kildee, Michigan
Sam Johnson, Texas                   Major R. Owens, New York
Mark E. Souder, Indiana              Donald M. Payne, New Jersey
Charlie Norwood, Georgia             Robert E. Andrews, New Jersey
Vernon J. Ehlers, Michigan           Robert C. Scott, Virginia
Judy Biggert, Illinois               Lynn C. Woolsey, California
Todd Russell Platts, Pennsylvania    Ruben Hinojosa, Texas
Patrick J. Tiberi, Ohio              Carolyn McCarthy, New York
Ric Keller, Florida                  John F. Tierney, Massachusetts
Tom Osborne, Nebraska                Ron Kind, Wisconsin
Joe Wilson, South Carolina           Dennis J. Kucinich, Ohio
Jon C. Porter, Nevada                David Wu, Oregon
John Kline, Minnesota                Rush D. Holt, New Jersey
Marilyn N. Musgrave, Colorado        Susan A. Davis, California
Bob Inglis, South Carolina           Betty McCollum, Minnesota
Cathy McMorris, Washington           Danny K. Davis, Illinois
Kenny Marchant, Texas                Raul M. Grijalva, Arizona
Tom Price, Georgia                   Chris Van Hollen, Maryland
Luis G. Fortuno, Puerto Rico         Tim Ryan, Ohio
Bobby Jindal, Louisiana              Timothy H. Bishop, New York
Charles W. Boustany, Jr., Louisiana  [Vacancy]
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York
[Vacancy]

                       Vic Klatt, Staff Director
        Mark Zuckerman, Minority Staff Director, General Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on August 31, 2006..................................     1

Statement of Members:
    McCollum, Hon. Betty, a Representative in Congress from the 
      State of Minnesota, prepared statement of..................    51
    McKeon, Hon. Howard P. ``Buck,'' Chairman, Committee on 
      Education and the Workforce................................     1
        Prepared statement of....................................     2
    Petri, Hon. Thomas E., Vice Chairman, Committee on Education 
      and the Workforce..........................................     3
    Udall, Hon. Tom, a Representative in Congress from the State 
      of New Mexico..............................................     5
    Wilson, Hon. Heather, a Representative in Congress from the 
      State of New Mexico........................................     4
        Resolution of support from All Indian Pueblo Council.....    42

Statement of Witnesses:
    Cornelius, Dr. Carol, Oneida Tribe of Indians of Wisconsin...    30
        Prepared statement of....................................    33
    Montoya, Sam, language and cultural resource administrator, 
      Pueblo of Sandia...........................................    34
        Prepared statement of....................................    37
    Shije, Amadeo, Chairman, All Indian Pueblo Council...........     8
        Prepared statement of....................................    11
    Sims, Christine P., Ph.D., assistant professor, department of 
      language, literacy, and sociocultural studies, Institute 
      for American Indian Education, College of Education, 
      University of New Mexico...................................    23
        Prepared statement of....................................    27
    Tabaha, Kimberly J., student of Window Rock High School......    39
        Prepared statement of....................................    41
    Wilson, Ryan, president, National Indian Education 
      Association................................................    11
        Prepared statement of....................................    15

Additional Material Submitted:
    Cross-Maple, Dr. Kathryn, Indian Education Division, New 
      Mexico Department of Education.............................    58
    Gregory, Dr. George Ann, Choctaw/Cherokee....................    52
    Native American Review Article by Jon Reyhner, Ed.D., 
      Professor of Education, Northern Arizona University........    54
    Tso, Eddie, program director, office of Dine culture, 
      department of Dine education, the Navajo Nation, prepared 
      statement of...............................................    53
    Wacondo, Elizabeth, librarian, the Laguna Public Library, 
      Pueblo of Laguna, prepared statement of....................    53
    Washington State Tribal Leader Congress on Education on 
      Recovery and Preservation of Native American Languages.....    57

 
                      RECOVERY AND PRESERVATION OF
                       NATIVE AMERICAN LANGUAGES

                              ----------                              


                       Thursday, August 31, 2006

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 2:30 p.m., at the 
Indian Pueblo Cultural Center, 2401 12th Street, NW, 
Albuquerque, New Mexico, Hon. Howard P. ``Buck'' McKeon 
(chairman of the committee) presiding.
    Present: Representatives McKeon, Petri, Wilson of New 
Mexico, and Udall of New Mexico.
    [Invocation given by Pueblo Santo Domingo Governor Julian 
Coriz in his native language.]
    Chairman McKeon. Thank you for that invocation. Even though 
I couldn't understand the language, I understood the spirit and 
I appreciate it and it's very fitting that we have the 
invocation in your native tongue. Thank you very much.
    We are holding this field hearing today to hear testimony 
on the recovery and preservation of Native American languages. 
With that, I ask unanimous consent for the hearing record to 
remain open 14 days to allow member statements and other 
extraneous material referenced during the hearing be submitted 
into the official hearing record. Without objection so ordered.
    Good afternoon. Welcome. In August the congressional 
district work-period offers us a unique opportunity to 
personally visit districts such as Congresswoman Wilson's and 
encourage dialog on matters affecting local citizens. This 
hearing represents such an opportunity. Today we will be 
discussing an important issue to this community and much of the 
Southwest, the loss of Native American languages, as well as 
potential solutions for language preservation.
    Yesterday I was in Flagstaff and we were talking about the 
No Child Left Behind Act but there was much discussion on this 
issue that we will be talking about today, and I'm glad that 
some of the people that were in that discussion yesterday, I 
know, have traveled to be with us here today, and I thank you 
all for being here for your attendance.
    Before we get started, though, I would like to take a 
moment for thank Representative Heather Wilson for hosting 
today's hearing in her district and the work she has done on 
this important issue that we are discussing. I also thank my 
colleague and Vice-Chairman of our committee, Representative 
Tom Petri, as well as Representative Tom Udall, also from New 
Mexico, for joining us here. Congressman Petri came from 
Wisconsin. Got up very early this morning to be with us and I 
appreciate him.
    Today's hearing is an important one, not only for this 
community but, frankly, for Congress as well. Sadly, in Native 
American communities across the country, native languages are 
in rapid decline. In fact, it's estimated that only 20 
indigenous languages will remain viable by the year 2050. As a 
result of this rapid decline, some communities across the 
country have made language recovery and preservation one of 
their highest priorities. The link between education, language 
and culture is considered by many as paramount to preserving 
the identity of Native Americans. Many in the Native American 
community believe the loss of native languages may be slowed by 
increasing support for Native immersion programs. With that in 
mind, in February of this year, Congresswoman Wilson introduced 
the Native American Languages Preservation Act.
    Congresswoman Wilson's bill would establish grants for 
Native American language educational organizations, colleges, 
governments and organizations to help preserve native cultures 
and languages. The philosophy behind these programs is very 
basic. Advocates of these programs argue that language 
immersion programs are effective ways of creating fluent native 
language speakers. And data also points to another benefit. 
Native students who go through an immersion program perform 
substantially better academically than Native students who have 
not gone through such a program. In fact, some national studies 
on language learning and educational achievement have indicated 
a direct correlation between language learning and higher 
academic achievement.
    Today we will have an opportunity to examine the concept of 
language immersion in greater depth and consider the role it 
could play in our efforts to slow the decline in Native 
languages. We will hear the perspectives of expert witnesses on 
how to address the issue of language loss, recovery, and 
preservation. And, indeed, we will be taking an in-depth look 
in Representative Wilson's Native American Languages 
Preservation Act.
    Can you hear me back in the back? I am giving a wonderful 
speech. Can you hear me now? Now? We're working on this. Now? 
Should I turn the mike on? Now?
    It really wasn't that good. OK. Somebody said we might just 
need a battery in this mike.
    I want to thank our witnesses for being here with us today. 
We have a distinguished panel of witnesses. I would like to 
begin by welcoming all of them here. Right after we have some 
statements from the other members. Who are we going to start 
with? Mr. Petri? Are you giving an opening statement? Let's go 
right down the line.
    [The prepared statement of Chairman McKeon follows:]

    Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Chairman, 
                Committee on Education and the Workforce

    Good afternoon--and welcome. In August, the congressional district 
work-period offers us a unique opportunity to personally visit 
districts, such as Congresswoman Wilson's, and encourage dialogue on 
matters affecting local citizens. This hearing represents such an 
opportunity. Today we will be discussing an issue important to this 
community and much of the Southwest: the loss of Native American 
languages as well as potential solutions for language preservation.
    Before we get started, though, I'd like to take a moment to thank 
Representative Heather Wilson for hosting today's hearing here in her 
district and for her work on the important issues we'll discuss. I also 
thank my colleague and the Vice-Chairman of our Committee, 
Representative Tom Petri, as well as Representative Tom Udall--also 
from New Mexico--for joining us here.
    Today's hearing is an important one, not only for this community, 
but frankly for Congress as well. Sadly, in Native American communities 
across the country, Native languages are in rapid decline. In fact, it 
is estimated that only 20 indigenous languages will remain viable by 
the year 2050. As a result of this rapid decline, some communities 
across the country have made language recovery and preservation one of 
their highest priorities. The link between education, language, and 
culture is considered by many as paramount to preserving the identity 
of Native Americans.
    Many in the Native American community believe the loss of Native 
languages may be slowed by increasing support for Native language 
immersion programs. With that in mind, in February of this year, 
Congresswoman Wilson introduced the Native American Languages 
Preservation Act. Congresswoman Wilson's bill would establish grants 
for Native American language educational organizations, colleges, 
governments, and organizations to help preserve Native cultures and 
languages.
    The philosophy behind these programs is very basic. Advocates of 
these programs argue that language immersion programs are effective 
ways of creating fluent Native language speakers. And data also points 
to another benefit: Native students who go through an immersion program 
perform substantially better academically than Native students who have 
not gone through such a program. In fact, some national studies on 
language learning and educational achievement have indicated a direct 
correlation between increased language learning and higher academic 
achievement.
    Today, we'll have an opportunity to examine the concept of language 
immersion in greater depth and consider the role it could play in our 
efforts to slow the decline in Native languages. We'll hear the 
perspectives of expert witnesses on how to address the issues of 
language loss, recovery, and preservation. And, indeed, we'll be taking 
an in-depth look into Representative Wilson's Native American Languages 
Preservation Act.
    I believe today's hearing will be very insightful and will help us 
better understand the importance of preserving indigenous languages and 
cultures, and I thank our witnesses and other stakeholders for joining 
us this afternoon.
                                 ______
                                 
    Mr. Petri. Thank you very much, Mr. Chairman. It's a real 
pleasure for me to be here in beautiful, sunny, pleasant, early 
fall Albuquerque, New Mexico to discuss the recovery and 
preservation of Native American languages. I am looking forward 
to the opportunity to hear from Native American language 
advocates on what can be done to preserve these languages for 
future generations.
    While several bills have been introduced in this general 
area, I would like particularly to recognize our colleague, 
Congresswoman Heather Wilson, for her recognized leadership on 
this issue embodied by her introducing of H.R. 4766, the Native 
American Languages Preservation Act, which would provide 
Federal support for programs that provide training for young 
children and their family.
    It's increasingly clear that each year the numbers of 
Native American speakers of their own language as a first 
language is rapidly declining. Of the nearly 300 Native 
languages of the United States only some 210 are still spoken, 
and one of the witnesses we are going to be hearing from, Mr. 
Ryan Wilson, President of the National Indian Education 
Federation, references in his testimony a prediction that there 
will not be 210 but possibly only 20 languages spoken in the 
year 2050. That's a trend we don't want to see--prediction we 
don't want to see translated into reality. Of course, quite 
often these languages are spoken only among the elderly.
    Efforts are underway to preserve these languages and 
encourage a new generation of Native Americans to keep these 
languages alive as an integral part of Native American culture 
and identity.
    Please, and I should note, I am not the only one to come 
from the northern tier, as it's called, of Wisconsin. We have a 
representative I have the Oneida tribe in my home state joining 
us today. As you will hear, Dr. Carol Cornelius has led efforts 
among the Oneida nation to preserve its language since 1996 
after recognizing that only 25 to 30 elders spoke Oneida as a 
first language. Oneida since made language preservation a 
priority by pairing elder native speakers with younger English 
speakers to train a new generation to appreciate and preserve 
their traditional language. I look forward to hearing from all 
of our witnesses on current programs underway and what we can 
do to further preserve traditional languages. I thank you 
again, Chairman McKeon, for your leadership on this issue and 
having the hearing today.
    Chairman McKeon. Ms. Wilson.
    Mrs. Wilson of New Mexico. Thank you, Mr. Chairman. I 
wanted to thank you personally for coming here to New Mexico. I 
know for you it's a trip back to New Mexico and that for a time 
in your misspent youth you lived here in Albuquerque.
    Chairman McKeon. Well-spent youth.
    Mrs. Wilson of New Mexico. And we wanted to welcome you 
back to New Mexico and thank you for your interest in this 
issue that's very important to us. And I also wanted to thank 
Tom Petri for coming down. I know there's no direct flight from 
Wisconsin to Albuquerque that I know of and I very much 
appreciate your efforts to get here today.
    I also wanted to thank my colleague, Tom Udall for his 
involvement and support on this issue and, of course, our 
witnesses that are here today, those who are visiting New 
Mexico as well as those who are deeply involved in the issue 
here locally. I look forward to your testimony today, very much 
so.
    And, of course, those of you who have chosen to come today 
to hear this, I wasn't sure how many folks would come. I was 
expecting maybe 20 or 30, you know, and the fact that so many 
people have come today, so many tribal leaders are here, tribal 
council leaders and Governors and lieutenant Governors and 
educational leaders are here today, is a visible demonstration 
of how important this is to New Mexico and to our tribes. Here 
in New Mexico we have 19 different Pueblo and three tribes, 
multiple language and dialects, but I first became interested 
in the issue when the Hickory Apache tribal council came to see 
me and said they were starting a language nest to preserve 
their language, and shortly after that, I was at Sandia Pueblo 
at their early childhood education center where they led the 
stream of money from Head Start with other tribal funds and 
have a very good child care program that starts at 6 weeks old 
and goes all the way to the first day of kindergarten.
    What was to me--there were a lot of wonderful things going 
on there, but one of them was that the grandmas come, and they 
come to sing and speak to the babies and the children so that 
they will have a language that their parents do not have; that 
it's skipping a generation, and that's how they are trying to 
restore their own use of their own language.
    Survey of native languages found that among the Apache in 
the Mescalero reservation in Southern New Mexico there are only 
ten native speakers left. At Sandia Pueblo north of Albuquerque 
most of their native speakers are middle-aged or older because 
they wanted their children to learn English and now they are 
having to skip a generation to preserve the language.
    Even among the Navajo, Navajo is spoken by more Native 
Americans about any other language in the United States. Even 
Navajo is endangered. Navajo children, only half of Navajo 
children starting kindergarten are fluent in their native 
language. That's why I introduced H.R. 4766, to try to preserve 
these languages, because language is connected to culture, and 
culture is what we celebrate here in New Mexico.
    It's intended to create and expand this idea of language 
nests and language survival schools and also to set up a 
demonstration program with universities and combine the 
strength and teaching at universities with the ability to teach 
language in new ways and preserve this wonderful heritage and 
culture that we enjoy here in New Mexico.
    Mr. Chairman, thank you again for your willingness to be 
attentive to this issue, to come back to New Mexico and to 
share this day with us. We appreciate it.
    Chairman McKeon. Mr. Udall.
    Mr. Udall of New Mexico. Mr. Chairman, thank you very much, 
and I also very much appreciate you being here and being a part 
of this community. You can see how welcome you are by this 
incredible attendance we have today, so thank you for coming. 
Knowing what you did when you were here in New Mexico as a 
youth, I am not sure it was misspent. I think it was very well 
spent. But we won't get into that.
    First of all, I just would like to put in two statements 
into the record, Mr. Chairman. The New Mexico Department of 
Education is represented here by Dr. Kathryn Cross-Maple of the 
Indian Education Division. Kathryn is the cabinet secretary, 
and they have a statement on what the State of New Mexico has 
done in Indian education and native language initiatives. Also, 
your committee member, Betty McCall, was unable to be here, but 
she wants to have a statement put into the record.
    Chairman McKeon. No objection. So ordered.
    Mr. Udall of New Mexico. With that, let me thank you and 
Ranking Member Miller for holding this hearing on an issue that 
is central to the culture and history of our great state. I 
hope your visit will help underline the need to quickly pass 
bipartisan legislation on language preserving native languages 
as so many of our tribes and Pueblos will demonstrate the 
importance that language has in their way of life.
    Additionally, I would like to welcome the various Pueblo 
leaders, Native American language experts and others who are in 
attendance. I thought it was particularly nice that we had a 
small reception before where we were able to exchange some 
ideas there.
    For too long in this state and throughout our country, we 
did not appreciate the importance of language and its ability 
to enhance the rich dynamics of our history. From learning the 
ancestry of those who came before us to passing stories down 
through generations, to maintaining religious, cultural and 
social ties, language is fundamental. We now recognize the need 
to cultivate and pass languages along to our children and 
grandchildren.
    I have had the great honor of visiting the Pueblo in my 
district during my four terms in office and learning the 
traditions and characteristics unique to each individual tribe. 
In those visits, I have had the opportunity to go to two 
Pueblos that I would just like to recognize for their native 
language program. One is Santa Clara, where I visited in the 
last couple years, and they have an excellent program, and also 
I was at Tesuque Elementary School where their program is 
making great progress.
    Both of these Pueblos, I think, have excellent programs and 
they are making great progress in having every tribal member 
speak his native language.
    There's no doubt in my mind that we need to strengthen our 
efforts at promoting native language preservation, and we must 
do so starting today. Native languages are being lost at a 
rapid pace. Tribal members are often the only ones fluent in 
the language as an increasing number of children are growing up 
in homes that only speak English. If we do not act soon, we 
will face a situation where the languages begin to die with the 
elders.
    If we truly hope to prevent the loss of these languages, we 
must find a solution, a bipartisan solution, which will put in 
place new immersion programs that are urgently needed. Studies 
show such programs offer the best opportunity for languages to 
be passed on. Certainly if there is a shortage of individuals 
speaking Native American language, there is no shortage of 
those who hope to see those languages revived and preserved and 
immersion programs will help fulfill that need.
    I want to applaud the efforts made by Representative Ed 
Case and my colleague here in New Mexico, Representative 
Heather Wilson, to expand and enhance the Native American 
language preservation programs currently in place, and I 
believe that their legislation is a big step in the right 
direction. While there are some differences between the bills 
that have been introduced, I have complete faith that common 
ground can and will be found. Authorizing legislation for new 
programs must move forward and time is of the essence if we 
want to stem the loss of these languages.
    Mr. Chairman, I want to thank you and Ranking Member Miller 
once again for focusing the attention of the committee on this 
extremely important issue and for taking the time to visit our 
state. I believe we can all agree that there's an urgent need 
to protect and preserve Native American languages and we must 
invest by implementing new immersion programs.
    With the current state of Indian education, our great 
nation faces many great challenges. I am thankful for your 
attention to this issue and hope that we will see in the very 
near future subsequent hearings on these issues. There is 
definitely a deep reservoir of intelligence and expertise in 
New Mexico, and we are happy to welcome you and your committee 
back any time.
    I also want to just recognize Representative Petri. 
Representative Petri and I are sponsoring a piece of global 
warming legislation, bipartisan piece of legislation. Why would 
I bring this up in this context? Because for me native 
languages are about the traditions with the earth, the fact 
that we come from Mother Earth, that we are part of Mother 
Earth, and I believe that the traditions that are represented 
in those languages have much to teach us. If we had adopted the 
ways that you had and the views that native people had of the 
earth, we would be a lot further along in terms of protecting 
our planet.
    So Representative Petri, you and I are on the front on the 
global warming battle but the native tribes are way ahead of us 
so we have a lot to learn today. Thank you, Mr. Chairman. Great 
to be here today.
    Chairman McKeon. Thank you very much. Now I would like to 
introduce our witnesses. First will be Mr. Amadeo Shije. He is 
chairman of All Indian Pueblo Council here in Albuquerque. The 
All Indian Pueblo Council is a consortium of the 19 Pueblo 
tribal governments in New Mexico and provides essential 
services to the Pueblo people. He was born and reared on the 
Zia Indian reservation and is a former Governor of the Pueblo 
of Zia. At age 18 he was inducted into the tribal council and 
is serving a lifetime appointment. Mr. Shije is a veteran of 
the U.S. Navy and a graduate of New Mexico Highlands 
University.
    Then we will have Mr. Ryan Wilson, President of the 
National Indian Education Association, which is the largest and 
oldest Indian educational organization in the Nation that is 
committed to increasing educational opportunities and resources 
for American Indian, Alaska Native and Native Hawaiian students 
while protecting their cultural and linguistic traditions. He 
is a member of the Ogalla Lakota Nation from Pine Ridge, South 
Dakota.
    I served a mission here for our church with the Latino 
people. My brother served a mission in Pine Ridge with the 
Indian people. I didn't know you were from there. That's good.
    He is also highly involved in tribal youth development 
where he serves as the Executive Director of the American 
Indian Youth Leadership Institute, the Northwest Indian Youth 
Conference and the IWSA Boys and Girls Club. Mr. Wilson is a 
graduate of the University of Washington.
    Then we will have Dr. Christine Sims, Assistant Professor 
in the Department of Language, Literacy and Sociocultural 
Studies at the University of New Mexico. She is one of the 
founding members of the Linguistic Institute For Native 
Americans, which is a New Mexico based nonprofit organization 
serving Native American tribes and language programs. Over the 
course of 20 years, she has organized summer institutes in New 
Mexico known as the Summer Institute of Linguistics for Native 
Americans, regional Native language conferences and workshops 
for Native Americans' local tribes. She is a tribal member of 
Acoma Pueblo and resides on the Acoma Pueblo Indian Reservation 
in Northwestern New Mexico.
    Then we will have Dr. Carol Cornelius. She has been an area 
manager for the Oneida Cultural Heritage Department for the 
Oneida Tribal Indians for the past ten and a half years. She is 
also adjunct professor at the University of Wisconsin in Green 
Bay. She has written numerous publications on the history of 
the Oneida tribe and served as consultant for numerous Native 
Americans at this time. In addition, school board member for 
the Oneida Native Elementary School and is co-president of the 
Cornell Education Society at Cornell University.
    I used to serve on a local school board. I had a friend 
tell me there's a special place in heaven for people who serve 
on the local school boards. I am hoping that's the case.
    Dr. Cornelius earned her Ph.D. From Cornell University.
    Then we will hear from Mr. Sam Montoya, the Language and 
Cultural Resources Administrator at the Pueblo of Sandia. Mr. 
Montoya also works as an Area Roads Program Manager and the 
Economic Development Program for the Bureau of Indian Affairs. 
He is fluent in Southern Tiwa and Spanish, and I presume 
English. Mr. Montoya is a graduate of Fort Louis college in 
Durango, Colorado.
    Finally, Ms. Kimberly Tabaha is a senior at Window Rock 
High School. You are just a kid. In Fort Defiance, Arizona, and 
also a student of the Navajo Language Immersion School. 
Welcome, all of you. Let's hear first then from Mr. Shije.

 STATEMENT OF AMADEO SHIJE, CHAIRMAN, ALL INDIAN PUEBLO COUNCIL

    Mr. Shije. Thank you. Thank you, Chairman McKeon and 
members of the committee. Welcome to New Mexico, and in 
particular I would like to welcome back Representative Heather 
Wilson and also Mr. Tom Udall. Welcome back to New Mexico. It's 
always good to see you back on the home grounds.
    You know, when tribes get together, we always seem to talk 
about some negative things and some things that we are reactant 
to, and hardly ever do we talk about those things that are 
really good news. Today I would like to, if the committee will 
indulge me for a minute or two, I would like to introduce a 
group of young people--I don't know if they are in the 
audience--but these young people hail from the very village 
where I was born and raised. They attend the Zia Elementary 
School up in Zia Pueblo. The good thing about that school is in 
the last four consecutive years they are the only school in the 
Albuquerque region, the Albuquerque Bureau area, that had 
attained the annual yearly progress, what a lot of people call 
AYP.
    These students have been able to do that with a lot of 
obstacles, and one of the biggest obstacles was the fact that 
there is not enough funding for language teachers up at that 
school.
    One individual, one young lady--I don't know if she is in 
the audience--Laurie Pino, if you will stand. There she is 
right there. She, by herself, has been able to go through all 
these classes and teach these young people the language and 
everything associated with the tribe, the cultural background, 
the histories and sitting around and talking to them, telling 
stories, because that's the way of the Pueblo people, and that 
is how you learn because the language is not written. So 
everything has to be communicated orally. With that, I would 
like to congratulate the students as well as the faculty from 
the Zia Elementary Middle School. They have attained so much 
and we hope that they continue to flourish as they go along, 
because we do have students that are excelling up in that area.
    Today I sit before you as the 19th Chairman of the All 
Indian Pueblo Council. The Council was first recorded as having 
its first meeting in the year 1598. There was 30 some odd--38 
tribal leaders at the time. They were holding the meeting. 
Insofar as what the topic of discussion I can only assume was 
probably discussion about the emergence from the east, the 
emergence from the west of non Indian individuals, and they 
were probably sitting around wondering and talking how they 
should accept these visitors coming in from these two 
directions.
    And I always tell this story about I think the Pueblo did 
such a great job of having a welcome reception for these people 
that they never left the country. They stayed behind. That's 
what you call Pueblo hospitality.
    As Pueblo Indians, we value our language, traditions, 
culture, religion, people and way of life. In spite of 
detrimental Federal policies of the United States, the Pueblo 
communities still practice their daily ceremonial lifestyles. 
There are no rights or duties more precious to us than those 
regarding religion and ceremonies, and in every aspect of our 
daily lives and fulfilling our daily existence the use of the 
language is there. Language has been and continues to be our 
last stronghold of the traditional form of government which 
existed long before Columbus and long before the formation of 
the United States.
    The protection of our language and religious freedom of our 
communities is critical to the pueblo's existence and survival. 
As Pueblo people, we give value to those things that make us 
Indian people. Our language, our culture, the values and 
traditions that perpetuate our cultural survival.
    At the same time, we must give equal value to educating and 
developing those skills necessary to deal with the external 
communities, to protect our communities internally, thus 
creating a balance in our lives. This statement I took from a 
Pueblo man, Mr. Regis Pecos.
    The continuance of Pueblo values and traditions are 
dependent upon the continued use of our native language. 
Unfortunately, this process has been seriously impacted by 
historical factors that have attempted to destroy our language 
and culture. This has included constant changes to Federal 
educational policies, key events throughout the history of this 
nation that have impacted tribes and treatment of native 
people.
    Chairman McKeon, you indicated earlier it is estimated that 
only 20 indigenous languages will remain viable by the year 
2050. For some tribes, this is already occurring. The loss of 
the language has already occurred. In others, efforts to 
maintain and revitalize native languages are being seriously 
pursued through community-based and school-based language 
efforts. This is accompanied by utilizing fluent speaking 
elders, traditional leaders and encouraging young parents who 
speak the language to teach and take the responsibility to 
teach their young children.
    One of the ways that we continue to immerse language in our 
communities here in the Pueblo country is we still have 
community gatherings. We still have community work where the 
tribal members come together and work on certain project as a 
whole. The whole family comes out to help. This is one way to 
teach our young people the culture and also at the same time, 
during these functions, the tribal language is spoken.
    Because the Pueblo people are close-knit, they live in 
close proximity to one another, and growing up I thought that 
was one of the reasons why I was able to really grasp hold of 
the culture and traditions of my tribe and to be able to speak 
the language. I am considered to speak fluent Pueblo language, 
but is it really fluent? Because some of our elders that are 
currently with us still are telling us, ``You are losing. We 
are not speaking what we used to hear when we were young 
people,'' so I am assuming that the language has already been 
lost to some certain extent. Whether we are able to retrieve it 
or get it back, that's a question and answer that has to be 
answered by the tribe themselves.
    The need for language survival is an issue of increasing 
concern. In particular, the Pueblo language in our state 
reflects a history which I would like to think as some of the 
oldest and longest sustained culture in the nation. Our 
languages have existed and today all functions within the 
sociocultural and socio-religious community continues on.
    What I mean here is that the language that we speak is not 
written, so in order for us to maintain the language, we have 
to teach our young people through storytelling, through 
activities, as I mentioned earlier, by community work. We also 
have some areas where we have in some of our younger people the 
Head Start program where we have been able to bring tribal 
members to come and talk to these young people in their 
language, and by doing that the young people have been able to 
speak. I am glad to say in my community and most of the Pueblo 
communities our very young people are starting to speak the 
language once again, and that's great to see and that's what 
makes, I believe, our elder people happy when they see that.
    To lose our language means the loss of everything that we 
Pueblo people stand for. I don't think there is a single 
individual in this room that can say that we will lose our 
language, because I don't think we will. We have sustained, 
been able to carry on the language and we will continue to do 
so.
    So on behalf of the All Indian Pueblo Council, a consortium 
of New Mexico's 19 Pueblo nations, we support H.R. 4766, the 
Native American Language Preservation Act 2006, which will 
provide much needed support to Native American Immersion 
schools. The Native Language Act Amendment of 2006 will provide 
much needed support for native language emergent schools 
because it is, as you mentioned, Chairman McKeon, it is well 
proven that language immersion programs are effective ways to 
create fluent speakers in the native language. We urge the 
Committee to act on H.R. 4766 and for Congress to pass H.R. 
4766. H.R. 4766 would amend the Native American Language Act 
which was passed in 1990, amended in 1992 and will create a 
competitive grant program with the Department of Education to 
support many language immersion programs in our communities.
    I am sitting here thinking maybe one of the immersion 
initiatives could be as of recently the All Indian Pueblo 
Council and also the Indian Pueblo Council filed a Federal 
injunction against the Bureau of Indian Affairs and the 
Department of Education. You can consider that as some type of 
immersion because we are requesting certain things to take 
place that directly affect our young people.
    If taking things to Court is one way to do it, I think 
tribes now have the ability to do that. And they have shown 
that they will do it and they continue to do certain things 
that a lot of people think they were not able to do.
    So with that--I know I was only given 5 minutes--I thank 
you, Committee, for allowing us to speak. I am sure the rest of 
the panel will go into depth and detail on some of the things 
that I have mentioned to you today. I will stand for questions 
when the time is appropriate.
    [The prepared statement of Mr. Shije follows:]

Prepared Statement of Amadeo Shije, Chairman, All Indian Pueblo Council

    My name is Amadeo Shije, Chairman of the All Indian Pueblo Council 
(AIPC) representing the 19 Pueblos in the State of New Mexico.
    I am writing on behalf of the All Indian Pueblo Council in support 
of H.R. 4766, the Native Language Act Amendments Act of 2006. This bill 
was introduced by Representative Heather Wilson to provide much needed 
support for Native language immersion schools. We strongly urge you to 
support the passage of this important legislation.
    The AIPC and the Native communities across the country are 
realizing a rapid decline in Native languages. It is estimated that 
only 20% of indigenous languages will remain viable by the year 2050. 
The AIPC and the Pueblos have made language recovery and preservation 
one of their highest priorities. It is proven that language immersion 
programs are one of the few effective ways to create fluent speakers in 
Native languages. Further, data shows that Native students who go 
through an immersion program perform substantially better academically 
than Native students who have not gone through such a program. For 
these reasons, it is urgent that Congress pass H.R. 4766 this session.
    By amending the Native American Language Act passed in 1990 and 
amended in 1992, H.R. 4766 would create a competitive grant program 
within the Department of Education to support Native language immersion 
programs in Native communities that would be called language nests and 
language survival schools. The language nest grants would provide 
financial support to tribes and tribal entities to create and/or 
continue Native language immersion programs for children under the age 
of seven and their families. The language survival school grants would 
provide financial support to tribes and tribal entities to expand 
language nest programs to provide immersion programs for students in 
elementary and secondary schools. H.R. 4766 would also allow for four 
demonstration programs based upon certain eligibility criteria. The 
demonstration programs would serve as technical experts to immersion 
programs, tribes, and the Department of Education as well as an 
information clearinghouse on immersion concepts and best practices.
    With so many Native languages and traditions becoming near the 
brink of extinction, the AIPC firmly believes that access to education 
through Native language immersion programs can be used to help preserve 
rather than replace Native culture. For the 19 Pueblos, the link 
between education, language and culture is fundamental and cannot be 
stressed enough as we preserve to maintain our identities. We 
appreciate your efforts to improve the education of Native children and 
thank you for your consideration of this important piece of 
legislation.
                                 ______
                                 
    Chairman McKeon. Thank you very much.
    Mr. Wilson.

STATEMENT OF RYAN WILSON, PRESIDENT, NATIONAL INDIAN EDUCATION 
                          ASSOCIATION

    Mr. Wilson. Good afternoon, Chairman McKeon, Vice Chairman 
Petri, Congresswoman Wilson. We want to give you a special 
thanks as well for introducing this Bill and Congressman Udall 
as well. Good afternoon and thank you again.
    As we understand it, the National Education Association, 
this is the first time in the history of the U.S. House of 
Representatives that there's been a field hearing on Indian 
education and this critical issue of immersion so we applaud 
you in those efforts and we understand as well that in our 
annual legislative summit on a cold, snowy night in the heart 
of the winter the bill was introduced on February 14th. When 
Congresswoman Wilson introduced it, it really ushered in a 
joyous daybreak to a long, long night of apathy when it came to 
our native languages so you hold a special place in our heart 
and we want to acknowledge you for that.
    I'm going to elaborate a little more on our Chairman Shije 
and what he expressed and I want to kind of jump into that. So 
far--when we look at--we are going to give you a little bit of 
an overview on some of the schools. And Dr. Sims is going to 
advance some of the critical data that you need to be hearing 
as well that will really accentuate where the schools place our 
young people academically. And I would like to give--what we 
want to say is a national perspective or overview on what some 
of the schools are doing now.
    But I want to start by also saying that today, we are at 
the beginning of a new century, the dawning of the 21st 
century. The United States of America and other countries 
around the world are supporting human rights, including the 
rights of indigenous minorities in places like Eastern Europe, 
the Middle East and other places in the world including Asia.
    The time has come now for equal recognition of the basic 
human rights of America's native peoples and the control of our 
education, tribal control, and what chairman Shije was talking 
about, the issue with the Bureau of Indian Affairs. They are 
approaching them from the issue of consent and consultation and 
what that really means. This is what we want as tribal people 
is really respectful, heightened ability to have communication. 
By having this hearing today, this historic hearing, you are 
taking a very, very important step in doing so.
    America, as you are going to hear from the other panelists 
through a variety of policies, became the single largest 
investor in the destruction of these languages, and there's a 
common theme that we hear so many times in Indian country when 
we approach our non Indian brothers that this should be taught 
in the home. This way of life belongs in your tribal community, 
in your village, wherever that may be, but in actuality, when 
you understand fully of history of what has happened, the 
trauma that has happened to these tribal communities, and that 
these languages, sacred languages, were put on trial, they were 
judged, they were convicted and they were jailed, and we were 
told--the only people here--to never stress our First Amendment 
rights, to never use our languages, have it outlawed, and here 
we are in 2006 everywhere we go we are told that, that they 
don't belong in the schools. They don't belong being taught 
this way.
    What we are saying here, everybody in the room, and you see 
this huge crowd that's come out, that it really exemplifies 
what's dear to our hearts. We are in a crisis and we are really 
saying that it belongs in our schools. Maybe not every school, 
but we have to create venues in our tribal communities where 
this can be taught, and we have to codify forever a place in 
the Department of Education to fund these schools. And that's 
what this bill is about and that's what this hearing is about 
and this is why we have come here.
    As I get more into what I'm going to say, it is not just 
the Pueblo people. We are so very happy to be here in Pueblo 
country. What they have done here. The All Indian Pueblo 
Council was the first tribal organization to endorse this bill. 
But subsequently other ones have come forward and say now is 
the time. And with one voice the National Congress of American 
Indians, affiliated tribes of Northwest Indians and we have a 
representative from the Muckleshoot Tribe from the Northwest 
that's come down to join us as well. The Great Plains tribes, 
the Wyoming Montana Tribal Leaders Association, the large, 
land-based tribes which represent those tribes that control 60 
percent of the entire land base in all of Indian country; the 
United Southeastern tribes, and of course, the National Indian 
Education Association, which has led us in this newly formed 
national alliance to save native languages, they have all come 
here, and I would like, with your permission, to submit letters 
of support and other supporting testimony for the congressional 
record.
    Chairman McKeon. No objection, so ordered.
    Mr. Wilson. Thank you, Chairman. What we want to really say 
is, as Representative Udall expressed, now is the time. We can 
no longer, as we sit by and watch these languages erode at 
lightning speed move at horse and buggy pace to replace them 
and to revitalize them. This revitalization movement, some 
people said we want to isolate ourselves from the rest of 
America. That's not true. That's not accurate. What you are 
going to hear today from this distinguished panel is this isn't 
an isolation movement, this is actually a movement to elevate 
the acquisition of English, to elevate our standards in 
academic progress and to really enjoy the full fruits of 
American dream, equity of opportunity and equality of 
opportunity.
    We are doing that in a way that's very purposeful and 
meaningful, because if you look at it, and I want to take you 
back to 1968, and some in the room maybe are too young to 
remember this. I obviously am, but I was able to read about it, 
and in a very, very powerful way the U.S. Congress investigated 
for the first time ever the conditions of Indian children, and 
it was led by the Senate Committee on Indian Affairs, Robert 
Kennedy, and they went out into Indian country like what you 
are doing here. They went and traveled and visited our schools.
    They went into our homes, and they uncovered something that 
was appalling to mainstream America but it wasn't to us because 
we live this amongst it. You though this, Chairman McKeon, 
because your brother did his mission in the poorest place in 
America, in Pine Ridge. But the American Indian that was 
documented through this report is systematically chronicled 
that we ranked at the bottom of every socio, every health, 
every education, housing and economic indicator that there was 
in America. And now here we are all these years later, 38 years 
later, and we still rank at the bottom of every one of those 
indicators.
    When we talk about Indian education, we gave up millions of 
acres of the richest land in the world in exchange for this 
continued inherent sovereignty and for these other things, and 
education was a piece of that. You heard yesterday it's a trust 
responsibility. It's a treaty right. And this is what we have 
come here to say is we want to express that right through these 
immersion schools as well.
    Because what we know, the current data shows us this, what 
is happening now, if we send 100 kids into kindergarten we know 
only 50 of them are going to graduate from high school. This is 
on average nationally. That wouldn't be accepted anywhere in 
America, but that's the reality of Indian country.
    Out of those 50 kids that graduate, only 20 of them might 
be ready to go on to a Division One college and be competitive 
academically. Out of that 20 that are even academically capable 
of doing that, maybe only 10 might apply, and even out of that 
ten only a handful are going to actually go on to higher 
education. I am talking non tribal colleges, but our mainstream 
universities.
    This is the reality that we face and we have to be honest 
about it in a way that says what is happening now, it isn't 
working. No Child Left Behind was an incredible step in the 
right direction for accountability, for setting goals and for 
really making the Indian count for the first time in so many 
schools where he was invisible, and we applaud this Committee 
for the work they did in that. But the implementation of it 
hasn't really quite been what we had thought. What we are 
asking you is to help close that achievement gap between 
promise and fulfillment. And this immersion school movement, 
this revitalization movement is really going to establish a new 
way of thinking, and as I said, through the Department of 
Education, to really impact for the first time since 1972 and 
that's when the original Indian Education Act was passed.
    Chairman McKeon, your predecessor, I was in his office with 
some of our staff, and we were talking about the Indian 
Education Act and the statute as it applies to this elementary 
and second education act. I was explaining that we had a desire 
for you guys to come out to Indian country and have a field 
hearings during the whole reauthorization process. The Chief of 
Staff for your predecessor, Congresswoman Barnard, she was 
explaining there's a lot of special interest groups that want 
to have inclusiveness and weigh in on reauthorization. I had to 
give her the explanation in a gentle way, Indian country is not 
a special interest group.
    Title 7 of the No Child Left Behind Act is the Indian 
Education Act. This is because we have a unique relationship 
with the Federal Government, and it's based on those treaties, 
based on the trust responsibility. This is what we want to help 
you guys understand in a good way and this is what our needs 
are. And what we are saying, when we look at our young people 
who go to the Piegan Institute in Browning, Montana; our young 
children that go to the Akwesasne Freedom School in the St. 
Lawrence River in New York, Ahapunanaleo School in Hawaii; the 
Lower Kuskokwim School District up there in Bethel, Alaska; 
what is happening here, our neighbors in Navajo Country, fort 
Defiance, Rock Point, those young people that go there, what we 
are finding now, this emerging research, this emerging data, 
what it's showing is beyond any shadow of a doubt when these 
schools are run properly, when there's an investment--and none 
of these schools are receiving those same Federal dollars as 
these other tribal schools, grant schools, BIA schools or 
public schools that are housing students. Most of them are 
privately funded and they are outpacing every one of them. They 
are outpacing their counterparts going to the other schools.
    What we have to say collectively among us is what are we 
doing to our own children when we are not advancing these 
practices? When we know something works yet we systematically 
prevent them from having access we are cheating generation 
after generation of young people. We can't do that anymore. We 
can't sit idly by when we know something is working and not 
advance it to the forefront. That's what the National Indian 
Education Association tried to do.
    We know how difficult it is for a Bill to get through 
Congress. But what we are saying is we have elders all over the 
country that are watching this bill. They are living and 
hanging on to life because they want to see this get passed. 
They want to have a tool, a vehicle, a conduit, so to speak, to 
pass our engendered way of life and languages on to our young 
people.
    And as I said earlier, those awesome challenges that face 
Indian country, and again, we know that. You heard about the 
meth epidemic yesterday. We all know about our alcoholism. We 
know about our diabetes, all these things, the high school 
dropout rate, the truancy, the low academic standards in the 
schools. What this does is this creates a commitment to 
excellent, because that's what our way of life is. It's an 
excellent way of life. It creates healthy minds. It creates 
young people that have assets, that are resilient and that are 
achieving because they are biculturally competent.
    We don't just want to reach the same standards. They use 
that word ``closing the achievement gap.'' We don't want to 
just close the achievement gap. We want our young people to be 
the most educated people in America, not just equal to our non 
Indian brothers. We want them to be the most educated people in 
America, and that will never come through the exclusive 
dominance of the English language. It will come through 
biculturally competent people. We have to create native 
thinkers and learners who have conquered the language, not 
Indian children who have been conquered by the English 
language. That comes from our own way of life and promoting 
that.
    So Chairman, I thank you again this historic day. I thank 
you for inviting me to give testimony and I will be here as 
well to answer any questions that you may have, the Committee.
    [The prepared statement of Mr. Wilson follows:]

  Prepared Statement of Ryan Wilson, President of the National Indian 
                         Education Association

    Good afternoon, Chairman McKeon, Vice-Chairman Petri, 
Representative Wilson, and Representative Udall. My name is Ryan 
Wilson, President of the National Indian Education Association (NIEA) 
located in Washington, D.C. I am honored to be here to testify today 
before this Committee to provide the views of NIEA on the importance 
and benefits of Native language immersion programs.
    Before I begin, I would like to take this moment to thank you for 
holding this important hearing on preserving Native languages. We 
appreciate the dedication to this serious issue you show by the fact 
that you are here--far away from Washington, D.C.--to seek our views 
and to see Indian Country first hand. I also want to thank, in 
particular, Representative Wilson for introducing H.R. 4766 and for her 
leadership in working with Native communities to provide them with much 
needed resources to save our precious languages.
    The National Indian Education Association (NIEA) is the oldest and 
largest Native education advocacy organization. Founded in 1969, NIEA 
has over 3,000 members. Its membership is comprised of American Indian, 
Alaska Native and Native Hawaiian educators, tribal leaders, school 
administrators, teachers, parents, and students. NIEA's membership also 
includes tribal governments located across the country. NIEA focuses 
its advocacy on the unique educational and culturally-related academic 
needs of Native students. Also, NIEA works to ensure that the federal 
government upholds its responsibility for the education of American 
Indians. The trust relationship of the United States includes the 
responsibility to ensure educational quality and access. NIEA works 
with all tribes to support innovative educational approaches.
    You have requested that my testimony focus on the importance of 
preserving Native languages and on Native language immersion programs. 
Further, you have requested that I discuss the benefits of language 
immersion programs, describe what Native communities are currently 
doing to encourage such programs, and to provide NIEA's views on H.R. 
4766, the Native American Languages Preservation Act of 2006. I hope 
that you find that my testimony provides you with the information that 
you seek.
Importance of Preserving Native Languages
    For Native people in the United States, our cultural beliefs, 
traditions, social structures, heritage, and governance systems depend 
on our Native languages. We conduct our ceremonies, prayers, stories, 
songs, and dances in our Native languages just as we have done since 
the beginning of time. Our languages connect us to our ancestors, our 
traditional ways of life, and our histories. For us, the survival of 
our cultures and identities is inextricably linked to the survival of 
our languages. If our languages die, then it is inevitable that our 
cultures will die next.
    The United States, in one of its darker moments in history, adopted 
an assimilationist policy where it pro-actively sought to eradicate 
Native languages by harshly forbidding the speaking of Native languages 
at BIA schools. The United States adopted this policy because it knew 
that people disconnected from their languages were more apt to lose 
their cultural identities and that a society's culture more quickly 
dies if the language dies. One linguist stated in his research that 
`Lieutenant Richard Pratt, architect of the BIA school system, summed 
up its educational philosophy succinctly: ``Kill the Indian * * * and 
save the man.'' '\1\
    Ms. Rita Coosewoon, Language Instructor, Comanche Nation College 
and Elgin High School, very eloquently described the deep impact that 
the United States' assimilationist policies had on her personally and 
why these policies have hastened the deterioration of our Native 
languages. At a Senate Indian Affairs Committee's hearing on Native 
language immersion schools on May 15, 2003, she stated:
    When I was old enough to begin my formal education I was taken to 
Fort Sill Indian Boarding School. Because I was reared by my 
grandparents, the only language I was exposed to was Comanche. There at 
the school we were forbidden to speak our language. We were severely 
punished if we were caught speaking anything other than English. So, at 
an early age I was being taught that my language was a hindrance to me. 
Consequently, I didn't teach my own children to speak the language. As 
I grew older I realized the mistake, I along with others had made. We 
robbed them of their culture and now we are struggling to teach them 
what we can.\2\
    Native languages are one of the treasures of this country's 
heritage and history. Native American languages have contributed to the 
rich fabric of what makes our country so great. Many states, cities, 
towns, streets, rivers, and other geographical places in our country 
are Native words. For example, the name ``Connecticut'' means ``beside 
the long tidal river'' in Mohican; the name ``Oklahoma'' means ``red 
people'' in Choctaw; the name ``Alaska'' means ``great land'' or ``that 
which the sea breaks against'' in Aleut; the name ``Chicago'' means 
``garlic field'' in Algonquian; the name ``Minnesota'' means ``sky-
tinted water'' in Dakota; the name ``Malibu'' is believed to derive 
from the Chumash Indians; the name ``Manhattan'' is believed to mean 
``isolated thing in water'' in Algonquian; the name ``Missouri'' means 
``town of large canoes'' and is believed to derive from the Missouria 
tribe; the name ``Nebraska'' means ``flat water'' in Otoe; the name 
``Tahoe'' means ``big water'' in Washoe; and the list goes on and 
on.\3\ It would be a shame to continue to lose the languages from where 
these words are derived.
    Indeed, these languages have played a vital role in protecting our 
country in times of war. In World Wars I and II, many brave Native 
Americans performed the role of code talkers, using a code language 
derived from Native languages. This ensured secure and rapid 
communication of critical information on the battlefield. We should 
honor these patriots by protecting their languages that helped protect 
this great country. Recently, NIEA held a Native Languages Legislative 
Summit in Washington, D.C. Navajo and Lakota Code Talkers from New 
Mexico, Arizona, and South Dakota participated along with many Members 
of Congress and language immersion practitioners. The passion for 
protecting Native languages was palpable at the Summit; and, when the 
Code Talkers spoke about their experiences in the military and their 
love for their language in the midst of discriminatory treatment, 
everyone who was there was energized to do all that they could to 
preserve these languages.
    Our Native languages are not spoken anywhere else in the world; 
and, if they are not preserved, then they will disappear forever. In 
Native communities across the country, Native languages are in rapid 
decline. Sadly, many tribes have already lost their languages. Language 
scholars estimate that there were approximately 300 languages spoken in 
North America prior to the arrival of Columbus.\4\ Some project that 
only twenty indigenous languages will remain viable by the year 
2050.\5\ According to the 2000 U.S. Census, out of a population of 4.1 
million American Indians and Native Alaskans, only 32.3% report 
speaking a language other than English at home. Given the rapid pace of 
deterioration of Native languages, it is a race against the clock to 
save Native languages. Therefore, Native language recovery is one of 
NIEA's highest priorities.
    As one linguist stated, ``Every language loss causes serious damage 
to individual and group identity, for it destroys a sense of self-
worth, limits human potential and complicates efforts to solve problems 
in the community.'' \6\ Another linguist stated, `Each language is a 
unique tool for analyzing and synthesizing the world, incorporating the 
knowledge and values of a speech community. Linguistic ``categories 
[including] number, gender, case, tense, mode, voice, `aspect' and a 
host of others * * * are not so much discovered in experience as 
imposed upon it.'' Thus to lose such a tool is to ``forget'' a way of 
constructing reality, to blot out a perspective evolved over many 
generations. The less variety in language, the less variety in 
ideas.'\7\
Native Language Immersion Programs and the Benefits of These Programs
    The key to stemming the loss of Native American languages is by 
significantly increasing support for Native American language immersion 
schools and other immersion programs. It is well proven that language 
immersion schools are one of the few effective ways to create fluent 
speakers in Native languages.\8\ For example, in Fort Defiance, 
Arizona, the students that participated in the Navajo immersion program 
did considerably better on the tests of Navajo language ability and 
tested as well in English proficiency as the English-only students. The 
resulting impact is that the Navajo immersion students were gaining 
control of their own language with no loss to their knowledge of 
English. Meanwhile, the English-only students were minimally competent 
in English, and scoring at lower levels than they previously scored in 
Navajo competency.\9\
    Native language immersion is a way of learning language that 
concentrates on communication exclusively in a Native language. 
Immersion teachers provide instruction on all topics with the Native 
language being the learning medium. Also, immersion programs are 
typically performed in the context of the culture of the community. 
Linguists estimate that a time frame of 4 to 7 years is needed to 
develop age appropriate levels of academic proficiency in a second 
language.\10\ There are many grassroots programs designed to revitalize 
Native languages throughout tribal schools, communities, and families; 
but these efforts are fragmented and inadequately funded.
    In addition to developing fluent speakers, language immersion 
schools have other remarkable benefits. Studies and analyses are 
showing that Native language immersion programs provide a proven method 
in decreasing Native drop-out rates and in increasing educational 
attainment.\11\ Keeping students interested in school is a challenging 
prospect for all educators and parents. For many Native students living 
in rural and isolated areas, if subjects are taught in non-cultural 
pedagogies and removed from their community's perspectives, then often 
Native students lose interest in school due to the non-relevance of the 
materials to their lives and identities. Immersion programs are 
facilitating academic achievement of Native students in a wide array of 
subject areas, including math, reading, and science as well as in the 
areas of arts and languages. Also, these programs are valuable in 
fostering self-awareness, self-esteem, social growth, and problem 
solving skills, which are crucial in developing confident individuals 
who can tackle life's challenges.
    One study reported that, while Native American children and youth 
have exhibited stagnant educational achievement (and have the poorest 
achievement of all American ethnic groups), Native language immersion 
has demonstrated remarkable promise in participants' educational 
achievement and in improving cognitive abilities.\12\ Another study 
reported that solid data from the immersion school experience indicates 
that language immersion students experience greater success in school 
measured by consistent improvement on local and national measures of 
achievement.\13\ For example, in Hawaii, there are twenty-two public 
schools either with immersion streams or with entire immersion 
curriculum. These schools have approximately 1700 students enrolled 
that outperform the average Native Hawaiian student in Hawaii public 
schools.\14\ While data specific to Native American language immersions 
schools is continuing to be compiled, national studies from both the 
public and private sectors emphasize the positive impact of language 
studies on educational achievement.\15\
    Below are a few more examples of successful immersion schools where 
the students are doing better than their counterparts who are not in 
immersion programs.
    The Piegan Institute is located in Browning, Montana, and serves 
students in grades K though 8 through instruction in the Blackfeet 
language. Piegan Institute programs provide an integrated approach that 
encompasses social, intellectual, academic, and linguistic dimensions. 
The focus throughout is on making connections across the various 
contexts of a learner's experience, the classroom, the family, the 
community and what language means for a learner in each of these 
contexts.
    The Akwesasne Freedom School is located on the St. Lawrence River 
in upstate New York and is an independent elementary school for grades 
pre-K through 8 run by the Mohawk Nation. The school was founded in 
1979 by Mohawk parents concerned that their language and culture would 
slowly die. In 1985, a Mohawk language immersion program was begun. The 
Mohawk ``Thanksgiving Address,'' which teaches gratitude to the earth 
and everything on it, is used as a curriculum base. Students study 
reading, writing, math, science, history and the Mohawk ceremonial 
cycle. The Akwesasne Freedom School combines solid academics with a 
strong foundation in Mohawk culture.
    In an effort to reverse language loss, the Lower Kuskokwim School 
District, located in western Alaska, began a Yup'ik Immersion program 
in Bethel under the state's Language Other than English as a Second 
Language program option. Thirty-two kindergarten children initially 
enrolled in this program. Today, the program has expanded to several 
villages and offers both Two-Way Immersion and Full Early Immersion 
programs. However, these programs are limited by materials, teachers, 
and financial resources while dealing with the continuing pressure to 
meet the standards of No Child Left Behind.
    The successes of Native language immersion schools and programs is 
demonstrated by many of the language schools meeting the standards 
outlined in No Child Left Behind (NCLB) through Adequate Yearly 
Progress (AYP) and the students' abilities to outperform their Native 
counterparts in non-immersion schools. The seven schools that met AYP 
in 2004 in the Lower Kuskokwim School District all had strong Yup'ik 
language and culture programs, especially at the primary levels. In 
2005, two schools, one with a Yup'ik language Development Program and 
one with an early immersion program, met AYP for the second year.\16\ 
This information demonstrates that the standards for the Yup'ik program 
are high and the Yup'ik instruction at the primary level results in 
strong academic proficiency in reading, writing, and math. The Yup'ik 
example is just one of many that shows the positive impact Native 
language programs have on student achievement.
    Also, in northern Arizona, the two language programs at the Rock 
Point Community School and the Navajo immersion program at Fort 
Defiance Elementary School have proven that instruction in Native 
languages fosters Native student achievement.\17\ At the Rock Point 
Community School, where the emphasis on instruction is on Navajo 
language and thought, the students performed better than comparable 
students in nearby schools at all grade levels, ``and the margin of 
differences tended to be larger at each succeeding grade.'' \18\ At the 
Fort Defiance Elementary School, where kindergarten and first grade are 
taught entirely in Navajo with increased instruction in English in 
second through fifth grades, the students performed considerably better 
on local assessments of writing-in-English and the math portion of 
standardized tests than their counterparts.
    Recognizing the significant deterioration of Native languages, many 
Native communities across the country are implementing wonderful 
language immersion programs through either school-based or community-
based programs, but many are struggling due to limited financial means. 
Below is the list of Native immersion programs of which NIEA is aware. 
Given that Native immersion efforts are grassroots-based, there is no 
one repository for this information. Therefore, this list is not 
exhaustive.

Akwesasne Freedom School, Rooseveltown, NY
Apache Tribe of Oklahoma, Anadarko, OK
Native American Studies Department, University of Montana, Missoula, MT
Bahweting Elementary School, Sault Ste. Marie, MI
Bay Mills Community College, Brimley, MI
Blackfeet Community College, Browning, MT
Cannisbrulee Native American Center of the Gulf South, Kenner, LA
Catawba Cultural Preservation Project, Rock Hill, SC
Center for Gifted and Talented Native Hawaiian Children, Hilo, HI
Cherokee Nation Cultural Center, Tahlequah, OK
Cheyenne River Community College, Lakota Studies, Eagle Butte, SD
Cheyenne Eagle Butte Schools, Lakota Language Program, Eagle Butte, SD
Chickasaw Nation of Oklahoma, Tishomingo, OK
Dean C. Jackson Center, Navajo Language Curriculum, Chinle, AZ
Chitimacha Tribe, Cultural Education Department, Charenton, LA
Choctaw Nation Government Offices, Choctaw Language Dept., Durant, OK 
        Cocopah Language Program c/o Cocopah Museum, Somerton, AZ
Comanche Language and Cultural Committee, Lawton, OK
Comanche Preschool Language Program, Lawton, OK
Coushatta Tribe, Elton, LA
Delaware Indian Language Project, Bartlesville, OK
Dine' Community College, Navajo Language Program, Tsaile, AZ
Dine' Cultural Language and Community Services, Window Rock, AZ
Dine' Nation Language Program, Window Rock, AZ
Dull Knife Memorial College, Lame Deer, MT
Euchee Language Class, Sapulpa, OK
Fond du Lac Tribal and Community College, Cloquet, MN
Ft. Belknap Community College, Gros Ventre & Assiniboine Languages, 
        Harlem, MT
Hale Kuamo'o, Center for Hawaiian Languages and Culture, University of 
        Hawaii, Hilo, HI
Hoopa Languages Program, Hoopa, CA
Little Big Horn Community College, Crow Studies Department, Crow 
        Agency, MT Little Hoop Community College, Fort Trotten, ND
Loyal Shawnee of Cherokee Nation, Psaslagi Cultural Center Language 
        Project, Tahlequah, OK
Marty Indian School, Marty, SD
Mashpee Wampanoag Tribal Council, Wampanoag Language Development 
        Committee, Mashpee, MA
Menominee Language Instructor/Programs, Native American Educational 
        Services (NAES) College, Keshena, WI
Mescalero High School , Mescalero, NM
Miami Tribe of Oklahoma, Miami, OK
Muskogee Creek Nation of Oklahoma, Okmulgee, OK
Nebraska Indian Community College, Macy, NE
Northern Ute Tribe Education Department, Fort Duchesne, UT
Northwest Indian College, Bellingham, WA
Oasis Primary School, Sells, AZ
Oglala Lakota College, Kyle, SD
Ojibwe Mekana, Ojibwe Language Instruction, Duluth, MN
Oneida Tribal High School, Oneida, WI
Peach Springs School District, Bilingual Academic Excellence Program, 
        Peach Springs, AZ
Piegan Institute, Blackfeet Language Program, Browning, MT
Project Tradition and Technology, Peach Springs, AZ
Pueblo of Acoma, Sky City Community College, Acoma, NM
Pueblo of Acoma, Acoma Language Retention Project, Acoma, NM
Pueblo of Cochiti, Cochiti Language Preservation Program, Cochiti, NM
Pueblo of Isleta del Sur, El Paso, TX
Pueblo of Nambe, Naminbi Ecocultural Language Program, Nambe Pueblo, NM
Pueblo of Picuris, Penasco, NM
Pojoaque Language Program, Poeh Cultural Center, Sante Fe, NM
Pueblo of San Juan, Ohkay Owingeh Community College,San Juan Pueblo, NM
Pueblo of Sandia, Bernalillo, NM
Pueblo of Santa Ana, Department of Education, Bernalillo, NM
Pueblo Santa Clara,
Espanola, NM
Pueblo of Taos, Taos Day School, Taos, NM
Pueblo of Tesuque, Education Office, Santa Fe, NM
Pueblo of Zia, Zia Day School, Zia, NM
Pueblo of Zia, Zia Language Preservation and Enhancement Program, Zia 
        Pueblo, NM
Pueblo of Zuni, Zuni Public School District, Zuni, NM
Puyallup Tribe, Chief Leschi School Bilingual Program, Puyallup, WA
Rock Point Community School, Rock Point, AZ
San Ildefonso Day School, Tewa Language Program, Santa Fe, NM
Sahaptin Language Department, Heritage College, Toppenish, WA
Salish Kootenai College, Pablo, MT
San Carlos High School, Apache Language and History, San Carlos, AZ
Sanders Unified School District, Sanders, AZ
Sealaska Heritage Foundation, Juneau, AK
Seminole Nation of Oklahoma, Seminole Language Curriculum, Wewoka, OK
Seneca Language and Culture Program, Salamanca, NY
Sinte Gleska UniversityLakota Studies Program, Mission, SD
Sisseton Wahpeton Community College
Dakota Studies Program, Agency Village, Sisseton, SD
Waadookodaading Ojibwe Language Program, Hayward, WI
Yup'ik Immersion Program, Lower Kuskokwim School District, Bethel, AK

    Also, please find attached to this testimony a bibliography of 
materials discussing Native language immersion programs.
Views on H.R. 4766
    NIEA strongly supports H.R. 4766 and urges the Committee to mark it 
up when it returns from August recess. Further, NIEA urges the Congress 
to enact this legislation this session. We realize that the legislative 
session is shortly coming to a close, but our languages are quickly 
dying out.
    H.R. 4766 would assist in the preservation of our Native languages 
while also providing a resource to our Native students to help them 
stay motivated in school, achieve academically, and gain greater self-
esteem and confidence. H.R. 4766 would do this by amending the Native 
American Languages Act to create a competitive grant program within the 
Department of Education to support Native language immersion programs 
called language nests and language survival schools. The language 
immersion grants would provide financial support to tribes, Native 
American language educational organizations, Native American language 
colleges, and other Native educational entities to create and/or 
continue Native language immersion programs for children and students 
under the age of seven and in elementary and secondary school.
    Language immersion costs money, and most Native communities have 
very limited funds. NIEA believes that the cost for this new grant 
program would be in the range of $8 million. Of course, if more could 
be appropriated, then the better. This funding would allow for firmer 
financial footing for existing language immersion programs and would 
provide encouragement for others to begin. With this federal support, 
we can slow down and hopefully reverse the loss of our Native languages 
and culture.
    Currently, the Native American Languages Act is administered by the 
Department of Health and Human Services' Administration for Native 
Americans (ANA) and provides for a very broad grant program for Native 
language projects that span the spectrum from recording and compiling 
information on extinct Native languages to teaching Native languages. 
This grant program provides minimal support for language immersion 
programs. Over the past few years, ANA's funding has been flat-lined at 
$44 million with less than 10% of this funding going toward language 
immersion programs, which include summer and seasonal camps, weekend 
retreats and seminars, and some year-round schools. This broad language 
grant program at ANA is one of several grant programs that ANA 
administers. At ANA, language grant applications must compete against 
ANA's other grant programs, including social and economic development, 
environmental regulatory enhancement, healthy marriages, and 
environmental mitigation. Further, the length of these grants varies 
from 1 to 3 years, which is not enough time to develop a successful 
language immersion nest or school.
    NIEA believes that the language immersion grant program set forth 
in H.R. 4766 would be appropriately administered by the Department of 
Education in its Office of Indian Education given that it is the 
federal agency that administers Native education and can provide 
stability for an immersion nest or school through its grant funding 
stream and other resources. Also, the language nests and survivor 
schools squarely fit within the purpose of Title VII of No Child Left 
Behind to provide for the ``unique and culturally related academic 
needs of Indian students.'' As you know, No Child Left Behind is 
administered by the Department of Education.
    For the demonstration program provision contained in Section 3 of 
H.R. 4766, NIEA recommends that the demonstration program participants 
be selected through a competitive grant process, such as the one set 
forth in S. 2674.
Conclusion
    Saving our Native languages is synonymous with preserving our 
Native culture and identities. The rapid loss of Native languages 
affects not only Native people but also all Americans. Native people 
and their languages are an integral part of America's history and 
heritage. We urge the Congress to take immediate action to help us 
preserve our languages for future generations. Further, improving the 
academic achievement and personal growth of our Native children 
benefits all Americans today and in the future. We look forward to 
working with you to enact H.R. 4766.
   bibliography of articles and research discussing native language 
                               immersion
Alaska Standards for Culturally-Responsive Schools. Fairbanks, AK: 
        University of Alaska, 1998.
Benjamin, R., Pecos, R., Romero, M.E. (1996) Language Revitalization 
        Efforts in the Pueblo de Cochiti: Becoming literate in an Oral 
        Society. In Nancy Hornberger (Ed.) Indigenous literacies in the 
        Americas: Language Planning from the Bottom Up. Berlin/New 
        York: Mouton.
Blair, Heather, John Janvier, Sally Rice, and Valerie Wood. Daghida: 
        Cold Lake First Nation Works Towards Dene Language 
        Revitalization. Flagstaff, AZ: Northern Arizona University, 
        2002.
Blue Arm, Marion. Assessing Lakota Language Issues on the Cheyenne 
        River Reservation. Flagstaff, AZ: Northern Arizona University, 
        2002.
Christie, Ella and Marilyn Cochran, Dora Dunn, Lula Elk, Ed Fields, 
        JoAnn Fields, Tracy Hirata-Edds, Anna Huckaby, Lizette Peter, 
        Margaret Raymond, Hastings Shade, Gloria Sly, George Wickliffe 
        and Akira Yamamoto. Assessing the Impact of Total Immersion on 
        Cherokee Language Revitalization: A Culturally Responsive, 
        Participatory Approach. Flagstaff, NM: Northern Arizona 
        University, 2003.
Crawford, J. Bilingual Education: History, Politics, Theory and 
        Practice. (4th Ed.) Bilingual Education Services: Los Angeles. 
        1999.
Crawford, James, Endangered Native American Languages: What Is to Be 
        Done, and Why? Reprinted in Language and Politics in the U.S. 
        and Canada: Myths and Realities, ed. Thomas Ricento and Barbara 
        Burnaby (Mahwah, N.J.: Lawrence Erlbaum Associates, 1998).
Deyhle, Donna and Karen Swisher. ``Research in American Indian 
        Education: from assimilation to self-determination.'' Review of 
        Research in Education. Vol. 22 (1997): 113-194.
Demmert, William G. Improving Academic Performance Among Native 
        American Children. Bellingham, Washington: Western Washington 
        University, 2004.
Demmert, William G. and John C. Townsend. A review of the research 
        literature on the influences of culturally based education on 
        the academic performance of Native American students. Portland, 
        OR: Northwest Regional Educational Laboratory, 2003.
Dick, Galena Sells and Teresa McCarty. Mother Tongue Literacy and 
        Language Renewal: The case of the Navajo. Tuscon, AZ: 
        University of Arizona, 1996.
Ditmar, Selena, Douglas R. Parks, Julia Kushner, Wallace Hooper, 
        Francis Flavin and Delilah Yellow Bird. ``Documenting and 
        Maintaining Native American Languages for the 21st Century: The 
        Indiana University Model.'' Revitalizing Indigenous Languages. 
        Ed. Jon Reyhner. Flagstaff, AZ: Northern Arizona University, 
        1999.
Ebmeier, Howard, Darrell Kipp, Paul Markham and John Monahan. 
        Evaluation of the Inupiaq Immersion Program. Lawrence, KS: 
        University of Kansas, 2000.
Estes, James, How Many Indigenous American Languages are Spoken in the 
        United States? By how many speakers? National Clearinghouse for 
        Bilingual Education. www.ncbe.gwu.edu.
Greymorning, Stephen. ``Going Beyond Words: The Arapaho Immersion 
        Program.'' Teaching Indigenous Languages. Ed. Jon Rehyner. 
        Flagstaff, AZ: Northern Arizona University, 1997.
Greymorning, Stephen. ``Running the Gauntlet of an Indigenous Language 
        Program.'' Revitalizing Indigenous Languages. Retrieved on July 
        6, 2006 from http://jan.ucc.nau.edu/?jar/RIL--2.html.
Guanish, George and Bill Jancewicz, Marguerite MacKenzie, and Silas 
        Nabinicaboo. Building a Community Language Development Team 
        with Quebec Naskapi. Flagstaff, AZ: Northern Arizona 
        University, 2002.
Harrison, Barbara. ``Te Wharekura o Rakaumangamanga: The Development of 
        an Indigenous Language Immersion School.'' Bilingual Research 
        Journal. Volume 22:2, 3, & 4 Spring, Summer, & Fall. (1998)
Hartley, Elizabeth and Pam Johnson. ``Toward a community-based 
        transition to a Yup'ik first language (immersion) program with 
        ESL component.'' The Bilingual Research Journal. Summer/Fall 
        1995, Vol. 19, Nos. 3 & 4, pp. 571-585, (1995).
Holm, A. & Holm, W. (1995). Navajo language education: Retrospect and 
        prospects. Bilingual Research Journal, 19(1).
Jacobs, K.A. ``A chronology of Mohawk language instruction at 
        Kahnawa:ke.'' Eds. Grenoble. L.A. and L.J. Whaley. Endangered 
        Languages: Language Loss and Community Response. Cambridge: 
        Cambridge University Press, 1998.
Johnston, Bill. ``The Rise and Fall of a Dakota Immersion Pre-School.'' 
        Journal of Multilingual and Multicultural Development. Vol. 9, 
        No. 3. (2002) 195-213.
Kipp, Darrell R. Encouragement, Guidance, Insights, and Lessons Learned 
        for Native Language Activists Developing Their Own Tribal 
        Language Programs. Browning, MT: Piegan Institute, 2000.
Kula Kaiapuni O Anuenue School. Honolulu, HI: Planning and Evaluation 
        Office, Office of the Superintendent. Retrieved June 26, 2006 
        from http://arch.k12.hi.us/pdf/ssir/2004/Honolulu/SSIR103-
        1.pdf.
Linn, Mary S., Tessie Naranjo, Sheilah Nicholas, Inee Slaughter, Akira 
        Yamamoto, and Ofelia Zepeda. Awakening the Languages: 
        Challenges of Enduring Language Programs: Field reports from 15 
        Programs from Arizona, New Mexico and Oklahoma. Santa Fe, NM: 
        Indigenous Language Institute, 2002.
Lipka, Jerry. Schooling for Self-Determination: Research on the Effects 
        of Including Native Language and Culture in the Schools. (2002) 
        Retrieved July 6, 2006 from http://www.ael.org/snaps/edorc01-
        12.htm.
Malone, Dennis. ``Developing Curriculum Materials for Endangered 
        Language Education: Lessons from the Field.'' International 
        Journal of Bilingual Education and Bilingualism. Vol. 6, No. 5. 
        (2003): 332-348.
McCarty, Teresa and Lucille Watahomigie. Indigenous Community-based 
        language education in the USA. Tucson, AZ: University of 
        Arizona, 1998.
Native Hawaiian Early Education, Development and Care. Senate Committee 
        on Indian Affairs Hearing transcript. Report No. Senate-Hrg-
        107-451. (2002).
Pease-Pretty On Top, Janine. Native Language Immersion: Innovative 
        Native Education for Children and Families. Denver: American 
        Indian College Fund. 2003.
Reardon, Nita, & Williams, Bev. (2006). ``Yup'ik Language Programs at 
        Lower Kuskokwim School District, Bethel, Alaska.'' The Journal 
        of American Indian Education, Volume 45, Issue 2.
Rehyner, Jon. ``Identity, Schooling and Success.'' NABE News. Vol. 25, 
        No. 4. (2002).
Rehyner, Jon. ``Place- and Community-Based Curriculum for High School 
        English Language Learners.'' NABE News. Vol. 25, No.3. (2002) 
        23-24.
Stiles, Dawn B. ``Four Successful Indigenous Language Programs.'' 
        Teaching Indigenous Language Programs. Ed. John Rehyner. 
        Flagstaff, NM: Northern Arizona University, 1997.
Sugarmen, Julie and Howard, Liz. ``Two Way Immersion Shows Promising 
        Results: Findings of a New Study.'' Center for Applied 
        Linguistics, ERIC/CLL Language Link. ERIC Clearinghouse on 
        Language and Linguistics: Washington, DC. September 2001.
Toulouse, Pamela Rose. Sagamok Anishinawbek: The Decision Makers and 
        Varying Conceptions of Cultural Inclusion at Beedaban School. 
        Toronto: Ontario Institute for Studies in Education, 2001.
Walsh, Michael. Teaching NSWs Indigenous Languages Lessons from 
        Elsewhere. Sydney, Australia: University of Sydney, 2002.
                                endnotes
    \1\ Crawford, James, ``Endangered Native American Languages: What 
Is to Be Done, and Why?,'' reprinted in Language and Politics in the 
U.S. and Canada: Myths and Realities, ed. Thomas Ricento and Barbara 
Burnaby (Mahwah, N.J.: Lawrence Erlbaum Associates, 1998) (quoting 
Pratt, R.H. (1973). Official report of the nineteenth annual Conference 
of Charities and Correction [1892], in F.P. Prucha (Ed.), Americanizing 
the American Indians: Writings by the ``Friends of the Indian,'' 1880-
1900 (pp. 260-71). Cambridge, MA: Harvard University Press).
    \2\ Testimony of Rita Coosewoon, Hearing before the Committee on 
Indian Affairs, United States Senate, 108th Congress, first session, on 
S. 575, to Amend the Native American Languages Act to Provide for the 
Support of Native American Language Survival Schools, May 15, 2003, p. 
75.
    \3\ Brunner, Borgna, American Indian Place Names, Pearson Education 
publishing as Infoplease (2006), http://print.infoplease.com (taken 
from O Brave New Words! Native American Loanwords in Current English, 
Charles L. Cutler).
    \4\ Estes, James, How Many Indigenous American Languages are Spoken 
in the United States? By how many speakers? National Clearinghouse for 
Bilingual Education. www.ncbe.gwu.edu.
    \5\ Crawford, J. Bilingual Education: History, Politics, Theory and 
Practice. (4th Ed.) Bilingual Education Services: Los Angeles. 1999.
    \6\ Pease--Pretty on Top, Janine. Native American Language 
Immersion: Innovative Native Education for Children & Families. 
American Indian College Fund: Denver, Colorado. 2003, p. 18.
    \7\ Crawford, James, ``Endangered Native American Languages: What 
Is to Be Done, and Why?'' Reprinted in Language and Politics in the 
U.S. and Canada: Myths and Realities, ed. Thomas Ricento and Barbara 
Burnaby (Mahwah, N.J.: Lawrence Erlbaum Associates, 1998) (quoting 
Sapir, E. (1931). ``Conceptual Strategies in Primitive Languages.'' 
Science, 74, 578).
    \8\ Benjamin, R., Pecos, R., Romero, M.E. (1996) Language 
Revitalization Efforts in the Pueblo de Cochiti: Becoming literate in 
an Oral Society. In Nancy Hornberger (Ed.) Indigenous literacies in the 
Americas: Language Planning from the Bottom Up. Berlin/New York: 
Mouton; see also Johnson, K. & Swain, M. (1997). Immersion education: 
International perspectives. Cambridge: Cambridge University Press; 
Stiles, D.B. (1997). ``Four Successful Indigenous Language Programs,'' 
In J. Reyhner (Ed.), Teaching Indigenous Languages, pp. 248-262. 
Flagstaff: Northern Arizona University.
    \9\ Holm A., Holm, W. (1995). ``Navajo language education: 
Retrospects and prospects.'' Bilingual Research Journal, 19(1), p.150.
    \10\ Testimony of Dr. Teresa McCarty, Interim Dean, College of 
Education, University of Arizona, and Professor of Language, Reading 
and Culture, Co-Director, American Indian Language Development 
Institute, Hearing before the Committee on Indian Affairs, United 
States Senate, 108th Congress, first session, on S. 575, to Amend the 
Native American Languages Act to Provide for the Support of Native 
American Language Survival Schools, May 15, 2003, p. 122.
    \11\ Pease--Pretty on Top, Janine. Native American Language 
Immersion: Innovative Native Education for Children & Families. 
American Indian College Fund: Denver, Colorado. 2003, p. 9.
    \12\ Pease--Pretty on Top, Janine. Native American Language 
Immersion: Innovative Native Education for Children & Families. 
American Indian College Fund: Denver, Colorado. 2003.
    \13\ McCarty, Teresa L. and Dick, Galena Sells. ``Mother Tongue 
Literacy and Language Renewal: The Case of the Navajo.'' Proceedings of 
the 1996 World Conference on Literacy. University of Arizona: Tucson, 
AZ. 1996, pp. 5-6.
    \14\ Op. cit. Pease- Pretty on Top. 2003, p.16, Aha Punana Leo. Our 
Language: e ola ka olelo Hawaii- the Hawaiian language shall live. 
Website, www.ahapunanaleo.org/HTML/OL,htm.Pp.6-7.
    \15\ Sugarmen, Julie and Howard, Liz. Two Way Immersion Shows 
Promising Results: Findings of a New Study. Center for Applied 
Linguistics, ERIC/CLL Language Link. ERIC Clearinghouse on Language and 
Linguistics: Washington, DC. September 2001, p. 2-3.
    \16\ Reardon, Nita, & Williams, Bev. (2006). ``Yup'ik Language 
Programs at Lower Kuskokwim School District, Bethel, Alaska.'' The 
Journal of American Indian Education, Volume 45, Issue 2, p. 40.
    \17\ Holm, A. & Holm, W. (1995). ``Navajo language education: 
Retrospect and prospects.'' Bilingual Research Journal, 19(1), p. 141-
167.
    \18\ Id. at p. 148.
                                 ______
                                 
    Chairman McKeon. Thank you very much. Those were eloquent 
words. The problem is, if all of you take that much time, we 
are going to run out of time before we have time to finish. But 
let's hear now from Dr. Sims.

STATEMENT OF CHRISTINE SIMS, ASSISTANT PROFESSOR, DEPARTMENT OF 
   LANGUAGE, LITERACY AND SOCIOCULTURAL STUDIES, COLLEGE OF 
              EDUCATION, UNIVERSITY OF NEW MEXICO

    Ms. Sims. [Introduction spoken in Native American 
language.]
    Good afternoon, Mr. Chairman McKeon and members of the 
committee. I am getting an echo for some reason. I will go 
ahead and go on. Mr. Chairman, I am thankful for the 
opportunity to come and speak before you today.
    Chairman McKeon. Try holding it back just a little.
    Ms. Sims. Now can you hear me? My name is Christine Sims. I 
am Assistant Professor at the University of New Mexico in the 
College of Education. I am one of six native faculty in our 
department. We are part of a growing institute called the 
Institute for American Indian Education. We are dedicated to 
the promotion of indigenous leadership and research in 
education and we seek to increase the capacity of American 
Indian tribes with regard to the development, expansion and 
improving the delivery of instructional services that address 
the educational and linguistic needs of American Indian 
children.
    I would like to acknowledge those folks that are sitting in 
the audience today, many of whom are not only from the 
University of New Mexico but as well many of our own tribal 
leaders, our elders, our parents are here, students are here. 
All of them are here in support of this very important meeting 
and also in support of the bills that are being proposed here.
    I would like to also say that in coming to New Mexico, as 
Chairman Shije mentioned has before, we take great pride in 
knowing that our villages here are some of the oldest 
continuously inhabited villages in all of the United States and 
many of the language communities that you see represented here 
are representative of languages that have been here hundreds 
and perhaps thousands of years. And our concern for the 
survival of languages comes from the fact that many of our 
communities, as Mr. Shije alluded to, are still very much 
dependent on an oral-based tradition where many of the 
languages aren't necessarily written. But in carrying on an 
oral tradition, many of the values, the beliefs, our own 
indigenous forms of education, are transmitted through 
language, and so for communities like ours especially, we have 
a special concern that children continue to learn these 
languages, even throughout their school years.
    I would like to note that this hearing comes at an 
especially significant time in our history for a couple 
reasons. First of all, it's noteworthy that the Committee is 
considering for the first time a number of education bills that 
would provide the resources most needed for Native American 
language survival. These bills at the same time, candidly 
speaking, being looked at with a little bit of skepticism and I 
will tell you why. Because throughout the history of education 
in this country, native people have always had their own 
indigenous form of education. It's an education rooted in 
language and culture. This indigenous form of education is what 
has enabled many of our tribes to survive in the face of 
historical events that Mr. Wilson alluded to just a few minutes 
ago.
    This history of American education in this country is 
replete with examples of where they would deliver attempts time 
and time again, especially with Federal education policy 
leading the way, to undermine these very foundations of 
indigenous education.
    So convening today's hearing in the context of what 
education can do to assist in the maintenance and survival of 
native languages is, therefore, especially significant to us 
today.
    The second reason that this hearing is significant is 
because I believe that at no time in the history of this nation 
has the possibility existed as it does now for Congress to 
support a conscious movement among Native American people to 
define for themselves a vision of education for their children, 
reflecting what is of most concern to them.
    The inclusion of language as an integral part of daily 
education that children could and receive and the potential 
benefits that children derive from the experiences and provide 
such opportunities is a part of that education vision that 
native people have for their children.
    Native communities want the best for their children. They 
want their children to do well academically and they want to 
see them develop as competent learners. Not just in mainstream 
societies but as members of their own tribal communities. The 
need for preparing future leaders of these communities rests on 
the kind of educational programs we provide to support Indian 
students as they come to appreciate and understand the value 
and the application of their ancestral languages to their daily 
lives as well as the life of the communities from which they 
come.
    Unfortunately, this vision for education has never fully 
embraced or has never been fully realized in the history of 
this nation as Federal legislation has often tended to drive 
practice and policy away from the concerns of native people 
regarding the maintenance of language and culture.
    Within the last decades, as we have seen language shift 
happen in many of our communities, the concern for language 
survival is driven by many tribes who want to see their 
children learn these languages. In New Mexico, as an example, 
there are a number of tribal communities who have established 
community-based language efforts as Senator Udall alluded to 
earlier, places like Tesuque, Santa Clara, San Juan, San 
Alfonso, Acoma, Cochiti, Zuni. These are all examples of 
communities, they are not all of them, but who have stepped to 
the plate and established their own initiatives as community-
based efforts first.
    Many of the circumstances though that we come up against 
has forced many of us to take these community-based efforts 
into that school settings and this is where we feel that the 
Committee can be especially helpful because we need that 
support. We need that support in terms of education bills that 
are going to make a way for children to learn these languages 
in schools.
    The significance of these developments is that they have 
also set in motion a whole new set of precedents concerning the 
treatment of native languages in schools.
    Consider that states like New Mexico, for example, now have 
in place statutory laws that not only support the establishment 
of heritage language programs as a new category of state-wide 
legal funding, but also acquiesced to tribes the development of 
their processes for certifying tribal members as language 
teachers in public schools.
    MOUs that have been developed between local school 
districts and tribes have also begun to open the doors for 
native communities to develop their own programs of native 
language instruction. It follows that as these kinds of 
developments emerge at the local and at the state level, that 
there should also be a similar movement within Federal 
education policy that fully supports the intent of the original 
native languages act by making available the funding necessary 
for such initiatives. As well the need for teacher training 
resources to successfully initiate and maintain these efforts 
is crucially needed. Tribal communities who do not have the 
infrastructure nor the resources to provide these services can 
be assisted by having the means to access technical service 
from training centers such as what you proposed back in 2003 
when the Senate Indian affairs Committee held their hearing in 
Washington.
    I know I only have a few minutes, and I know that the full 
text of my testimony has been submitted to you all, but I would 
like to just----
    Chairman McKeon. The full text of each of your testimonies 
will be in the record.
    Ms. Sims. I would like to summarize my comments today by 
saying that for all of us here in this room, not just the 
communities from New Mexico, but all across this nation, 
language is at the heart of our survival. It's the heart of our 
sociocultural systems. It's the heart of our own systems of 
jurisprudence in governments that we had from time immemorial. 
Language is the means by which we pass on to our children the 
things that are essential for their socialization into the 
lives of our communities. It's the link by which we pass on 
values and beliefs.
    For many communities, such as our own Pueblo tribes here in 
New Mexico, these languages are the primary and sole means for 
transmitting traditional knowledge, religious beliefs and 
practices. These aspects of language use all combine to form 
the essence of what has been for us the foundation for 
educating native children. And we hope as members of this 
Committee that you will take back to Congress and your 
colleagues in the House and the Senate the notion and the ideas 
and what has been expressed to you today of how critical these 
languages are and how critical they have been to our survival 
for thousands of years.
    And in this room there are students, there are children 
that have every desire to learn these languages, and as part of 
the education for these children, there should be no question 
that language it a part of that and that language doesn't have 
to be something set aside or that it's something special or 
something additive; that language learning is just as important 
as learning other things in school. And we know from research 
that has been done, latitudinal research on one-way and two-way 
bilingual language programs, that benefits children derive from 
being in these classrooms where they are schooled in their 
heritage language, they go beyond just the fact of learning the 
language itself. They come with the added benefits that 
children derive from having lessons taught that reflect where 
they come from.
    In essence, the things that they receive as part of 
language learning with their own community people teaching 
them, that is the foundation of learning that oftentimes when 
children don't have that, I'm afraid some of all these kinds of 
ills we see in terms of academics grow from that, from not 
having that opportunity.
    So I would remind you all, gentlemen and ladies of the 
Committee, that as you have this discussion with us today, 
please don't forget that what's at stake here is the children 
that are out there and the children that are probably in the 
classrooms now that couldn't be here today.
    So I will end my comments here, and I also want to just 
mention very briefly that I do also have additional letters of 
support that I would like to hand to the Committee that come 
from different organizations as well as the University of New 
Mexico and if I could submit that to the Committee, I would 
appreciate it.
    [The prepared statement of Ms. Sims follows:]

 Prepared Statement of Christine P. Sims, Ph.D., Assistant Professor, 
Department of Language, Literacy, and Sociocultural Studies, Institute 
for American Indian Education, College of Education, University of New 
                                 Mexico

Part I: Introduction
    Mr. Chairman and Members of this Committee: My name is Dr. 
Christine Sims. I am an Assistant Professor at the University of New 
Mexico in the College of Education. I am one of six Native faculty in 
the Department of Language, Literacy, and Sociocultural Studies who 
represent professionals in the field of American Indian Education. We 
are part of a growing institute, namely the Institute for American 
Indian Education, based in the UNM College of Education. The Institute 
is dedicated to the promotion of Indigenous leadership and research in 
the field of education and seeks to increase the capacity of American 
Indian tribes in developing, expanding, and improving the delivery of 
instructional services that address the educational and linguistic 
needs of American Indian students. I would like to acknowledge many of 
my colleagues from the University who are here today in support of the 
important matters that will be discussed today concerning the recovery 
and preservation of Native American languages.
    I am here today also speaking in the capacity of a tribal member 
from the Pueblo of Acoma, one of the 19 Pueblo Indian tribes of New 
Mexico. I have lived all my life in this Pueblo and have been involved 
in our community's language retention program as a language teacher 
trainer and an advisor to the tribe for its various language 
initiatives. I would like to acknowledge their presence here as well 
today. As you can see, there are many other members of various tribal 
communities also present with us. While I cannot name them all 
individually in the time I have been allotted, I do want to recognize 
these individuals who represent Native communities in their various 
capacities as tribal leaders, elders, Native language teachers, 
parents, and students all of whom are especially concerned about the 
issue of native language survival. Some of these individuals have 
brought with them letters of support for the proposed amendments and 
they would like to submit these at some point to this body.
    On behalf of my fellow tribal people I would like to welcome you to 
New Mexico. We take great pride in knowing that here in New Mexico, our 
Native cultures and villages represent some of the oldest and longest 
sustained tribal communities in this nation. Many of our present-day 
Pueblo villages still exist in their original locations predating the 
entrance of Europeans to the Southwest. Your presence here today is 
therefore one that we have anticipated with great interest and concern 
about what is being proposed as amendments to the Native Languages Act. 
We hope that in your conversations with us today, that you will take 
back to Congress the essence of why these proposed bills are so 
important to all of us in Indian Country.
    I want to thank this Committee for the invitation to speak at this 
hearing and while I recognize that the time allotted to me for my 
comments is short, I hope that the full text of my written testimony 
will provide you with information that will be helpful and insightful 
as you deliberate the various amendments to the Native Languages Act. 
Specifically I am referring to the following three bills that have been 
proposed by various members of the U.S. House and Senate: 1) the 
American Language Preservation Act (H.R. 4766); 2) the Native American 
Language Amendment Act of 2006 (S.2674); and 3) the Native American 
Language Amendment Act of 2006 (H.R. 5222). All of these bills which 
propose funding support for language immersion programs and assistance 
to language survival schools and language nests are amendments which we 
support. We are especially supportive of these same provisions included 
in Representative Heather Wilson's bill (H.R. 4766) but which also 
includes training services for native language instructors, 
demonstration programs and research in language policy based at the 
University of New Mexico.
Part II. Language and Culture, the Foundations for the Education of 
        American Indian Children
    I would like to note, that this hearing comes at an especially 
significant time in the history of American Indian education for 
several reasons. First, while it is noteworthy that this Committee is 
considering for the first time a number of education bills that would 
provide the resources most needed for Native American language 
survival, these bills are at the same time, candidly speaking, being 
met with a bit of skepticism from among many in Indian Country. Why? 
Because throughout all the thousands of years that our tribal 
communities have existed, there has always been a system of indigenous 
education for our children that is essentially rooted in language and 
culture. This indigenous form of education is what has enabled many of 
our tribes to survive in the face of historical events and federal 
education policy that have attempted at various times to tear away at 
the very fabric of Native American life (Adams, 1995). The history of 
American Indian education in this country is replete with examples of 
how such deliberate attempts have occurred time and time again, often 
with federal education policy leading the way, in undermining the very 
foundation of what should have been for Native people, the rightful 
education of their children as members of unique and sovereign nations 
(Hinton, 2001). Convening today's hearing in the context of what 
education can do to assist in the maintenance and survival of Native 
languages is therefore especially significant, considering this past 
history.
    The second reason this hearing is significant is because I believe 
that at no time in the history of this nation has the possibility 
existed as it does now, for Congress to support a conscious movement 
among Native American people to define for themselves a vision of 
education for their children, reflecting what is of most concern to 
them. The inclusion of language as an integral part of the daily 
education that Indian children could and should receive and the 
potential benefits that children derive from these experiences when 
provided such opportunities is a part of the vision that Native people 
have for their children (Blum Martinez, 2000; Sims, 2001). Native 
tribal communities want the best for their children. They want their 
children to do well academically and they want to see them develop as 
confident learners both in mainstream society as well as in their own 
tribal communities. The need for preparing future leaders of these 
communities, as well, rests in the kind of educational programs that 
support Indian students as they come to appreciate and understand the 
value and application of their ancestral languages to their daily lives 
as well as in the life of the communities from which they come. 
Unfortunately this vision for education has never been fully realized 
in the history of this nation as federal legislation has often tended 
to drive practice and policy away from the concerns of Native people 
regarding the maintenance of language and culture.
    Within the last several decades as the growing phenomenon of 
language shift towards English has evolved in many Native communities 
this concern for language survival has driven many tribes to consider 
establishing native language initiatives in schools. Here in New 
Mexico, there are a number of tribal communities who have established 
community-based language efforts that work in conjunction with local 
schools to provide language immersion classes for their students. The 
intent of these initiatives has been to provide children the 
opportunity to learn their tribal heritage languages alongside their 
regular academic studies. Other communities have established entire 
schools that teach all school subject matter in the native language. 
Regardless of how different tribal communities have chosen to address 
the need for language instruction the bottom line for these communities 
has been the need for re-strengthening and revitalizing Native 
languages as spoken living languages.
    The significance of these developments, therefore, is that they 
have set in motion a whole new set of precedents concerning the 
treatment of Native languages in schools. Consider that states like New 
Mexico, for example, have in place statutory laws that not only support 
the establishment of heritage language programs as a new category of 
state funded bilingual programs but have also acquiesced to tribes the 
development of their own processes for certifying tribal members as 
language instructors in the public schools. The development of local 
MOUs between local New Mexico school districts and tribes has begun to 
open the doors for Native communities in the development of their own 
programs for Native language instruction in public schools. Lastly, as 
educational institutions such as the University of New Mexico's 
Institute for American Indian Education have responded to tribal 
leaders' calls for the inclusion of Native language in the education of 
New Mexico's Native children, new multi-agency collaborations have 
begun to emerge that support this vision. This includes the University 
of New Mexico's College of Education working in conjunction with state 
level agencies such as the New Mexico Public Education Department and 
the New Mexico Department of Indian Affairs. In summary, it follows 
that as these examples of new collaboration at the local and state 
level emerge, there should also follow a similar movement within 
federal education policy that fully supports the intent of the original 
Native American Languages Act of 1990, by making available the funding 
necessary for such initiatives. As well, the need for Native language 
teacher training should also be considered an integral part of 
sustaining successful efforts in language maintenance. Tribal language 
communities who do not have the infrastructure nor the resources to 
provide these services to their own members can be assisted by having 
access to these services through a language teacher training center as 
originally proposed by this witness in hearings conducted on this same 
topic in 2003 to the Senate Indian Affairs Committee.
    The skepticism I alluded to earlier lies in the fact that tribal 
concerns about the education of Native children may not always be 
appreciated in light of current federal education policy that drives 
mainstream educational practice. This is especially apparent when 
tribal priorities in education are inclusive of native language 
instruction but where mainstream education policy does not follow or 
omits any direct support for such initiatives. Support for language 
nests, school based and community based language immersion programs 
therefore also need to be considered in light of tribal priorities and 
how current federal education policy will need to change in order to 
fully support these efforts.
Part III. The Significance of Native Language Immersion Programs
    For indigenous people across this nation, the issue of language 
survival is inextricably linked to cultural survival. Language is at 
the heart of our sociocultural systems of kinship and identity. 
Language is at the heart of our systems of jurisprudence and governance 
as is still carried on in many tribal communities such as the Pueblos 
of New Mexico. It is the means by which our children are socialized 
into the life of the community and our unique tribal ways of life. It 
is the link by which values and beliefs are handed down between and 
through successive generations. For many tribal communities such as the 
Pueblo tribes of New Mexico oral based foundations in the respective 
native languages, are also the primary and sole means for transmitting 
traditional knowledge, native religious beliefs and practices. These 
aspects of language use all combine to form the essence of what has 
been the foundation for educating Native children to take their place 
in our respective communities.
    With the introduction of mainstream American forms of education in 
the lives of Native children at the turn of the 20th century, however, 
much of the elements of Native education began to rapidly erode (Adams, 
1988). The legacy of federal education systems and policies carried out 
in the early decades of the 20th century were especially detrimental to 
Native tribes, often exacerbating the already painful experiences of 
forced removal from traditional lands in many cases. The continuing 
legacy of such circumstances continue to haunt us today, when we view 
the problems and issues that are often associated with the low academic 
performance of Native children, including high drop out rates, high 
rates of youth suicides, and low academic test scores. There is much 
that will be said here today concerning the efficacy of educational 
initiatives that provide funding support for Native language 
initiatives. My remarks about the benefits to native students when they 
are provided the opportunity to learn their heritage language in an 
immersion setting are provided in the following section.
Part IV. The Benefits of Language Immersion Programs
    Much of what we know as successful models of native language 
instruction are based on models of language immersion approaches first 
introduced by the Maori and Hawaiian language initiatives. These models 
have been successful in revitalizing these languages especially among 
school age and pre-school populations where students have had the 
opportunity to hear the spoken language used in the normal everyday 
contexts of the classroom by their teachers and their peers. These 
models have also been the basis for several community-based initiatives 
here in New Mexico.
    The Pueblo of Cochiti, for example, is a Keres speaking community 
in which a day care center was established in 2002 for toddlers and 
infants. It is a small day care center that provides a place for 
working parents to leave their children with fluent Keres speaking 
caregivers. In this way, young children who are at the critical stages 
of language development receive the full benefit of hearing the native 
Keres language spoken to them as they eat, play, nap, and engage in the 
normal everyday contexts of spending time in the care of Keres 
speakers. Once these children enter Head Start, it is very apparent 
when they participate in the community's summer immersion camps that 
they are a step ahead of their peers who have not had exposure to the 
Keres language. Their comprehension and receptive abilities in the 
native language are readily apparent in their response to questions and 
directions given by adult language speakers.
    As these children matriculate to succeeding grades, they are given 
the opportunity to continue learning their language through daily 
immersion classes at the local elementary public school. For those 
groups of Cochiti children who have had successive years of 
participation in language immersion summer programs over the last 6 to 
8 years as well as daily immersion classes at school the gains that 
they have made in learning the native language have been especially 
promising. These children are now at the stage where they are able to 
speak in the language and are able to use it as a means for 
communicating with peers, family members and their teachers. 
Furthermore, they exhibit a confidence in learning that extends beyond 
the immersion classes and into other areas of their schooling where 
many of them excel in various academic subjects.
    A similar model for an immersion class for Acoma Pueblo high school 
students was also recently begun in 2001. This initiative was developed 
as an extension of community-based efforts in the local Acoma community 
to provide language instruction in an immersion setting. Students 
receive high school credit for taking this elective which is provided 
through daily classes. Some of these students have also had the benefit 
of attending the Pueblo's summer immersion programs over the past six 
years. Many of them have also begun to use the native Keres language on 
their own. Some students have often noted how this learning opportunity 
has afforded them the confidence and the language skills that are 
necessary for participation in the community's traditional practices. 
This year was also the first time one of the Keres language students 
was able to deliver her high school valedictorian address in both 
English and in Keres. A recent external evaluation of the high school 
program found that many students were especially aware of this critical 
tie between language learning and its application to the traditional 
life of the community.
    Thus, initiatives such as these reflect the nature of what I stated 
earlier as being the core and foundation for educating Indian students. 
In these contexts the students begin to acquire the ability to use the 
skills learned in the native language and apply them in their daily 
lives. The ways in which these students interact with their teachers 
who are from the community speaks to the high level of respect this 
students gain from the using the language in its rightful contexts as a 
language of respect. It is also reflected in other aspects of their 
academic work leading to successful completion of a high school 
education.
    While these examples are but a sample of what children can gain 
from being instructed in the native language, the emerging results we 
see as language and culture are infused in the regular instructional 
program for American Indian students points to the important role that 
native language instruction can play in the daily lives of pre-school 
and school age children in our tribal communities. We therefore want 
this Committee to know that we fully support HR4766 proposed by NM 
Representative Heather Wilson and we wish to underscore the importance 
of providing appropriate levels of funding for language immersion 
programs whether they be in schools or in communities. We see as well 
the need for demonstration programs housed within an entity such as the 
Institute for American Indian Education here at UNM so that technical 
assistance in teacher training and program development can be provided 
to American Indian communities in the Southwest and across this 
country.
                               references
Adams, David A., (1988). ``Fundamental Considerations: The deep meaning 
        of Native American schooling, 1880-1900.'' Harvard Educational 
        Review. Vol. 58. No.1. Pp. 1-28.
Blum Martinez, R. (2000). Languages and tribal sovereignty: whose 
        language is it anyway? In Theory Into Practice 39, No. 4, 211-
        219.
Hinton, L. (2001). Federal language policy and indigenous languages in 
        the United States. In K. Hale & L. Hinton, (Eds), The Green 
        Book of Language Revitalization in Practice. San Diego: 
        Academic Press, 39-48.
Sims, C. (2001). Native language planning: a pilot process in the Acoma 
        Pueblo community. In K. Hale & L. Hinton, (Eds), The Green Book 
        of Language Revitalization in Practice. San Diego: Academic 
        Press, 63-73.
                                 ______
                                 
    Chairman McKeon. We would be happy to accept those. Without 
objection, they will be included in the record.
    Ms. Sims. Thank you.
    Chairman McKeon. Dr. Cornelius.

  STATEMENT OF CAROL CORNELIUS, AREA MANAGER, ONEIDA CULTURAL 
          HERITAGE DEPARTMENT, ONEIDA TRIBE OF INDIANS

    Ms. Cornelius. [Introduction spoken in Native American 
Language.]
    I couldn't do that 10 years ago. I'm learning right with 
the kids. I said, ``Greetings to all of the people here.'' In 
our language, my name is Ga neka o lu, which means ``a little 
bit of water, water is precious.'' I am of the Turtle Clan of 
the Oneida Nation, which is a member of the Haudenosaunee. You 
would have heard of us as the Iroquois confederacy. I am also 
Muhhecanneuw, which is the people by the Hudson River who were 
removed to Wisconsin also. The last speaker of that language 
died in the 1950's, so I know absolutely what it's like for 
part of my heritage--there are no elders to go to. And I am 
also a little bit of mom-taught.
    I wish--first I wish to extend a thank you to the Committee 
for having us here and having this opportunity to testify on 
this Act. The Oneida Tribe of Indians of Wisconsin is located 
near Green Bay, Wisconsin. Green Bay Packers. They need a 
little help right now.
    Chairman McKeon. A lot of help.
    Ms. Cornelius. I stand by them. Our tribal membership is 
15,591 with about 6120 living on or near the reservation, our 
65,000 acre reservation. Our homelands is what is known today 
as New York State. Our homelands are down to 32 acres of land 
there. And we were removed to Wisconsin in the 1820's.
    History demonstrates we lost most of our speakers due to 
Federal policies prohibiting tribal boarding schools and public 
schools from allowing our languages to be spoken by the 
children attending those schools. Every Oneida family, 
including my own, has a story about why we don't speak the 
language. When I was a child I asked my grandmother to teach me 
and she said, ``The only way you make it in the white man's 
world is to speak English,'' and she refused to teach me. It's 
taken us a long time to understand that she was doing that to 
protect us from all of the hurt that she had been through, and 
to be forgiving in that way. It took a lot of time to know 
that.
    There are heart-rendering stories of how our ancestors were 
abused in boarding schools both physically and psychologically 
for speaking our language. The Oneida Language Revitalization 
Program has determined that we have only five tribal members 
who learned Oneida as their first language who are alive yet 
today. Two of those are over 95 years old and they have helped 
us in the past but they are no longer able to teach us. The 
other three remaining elders, and the youngest of those is 86, 
comes to work with us anywhere from two to 7 hours a week when 
their health permits.
    The Oneida Language Revitalization Program has also 
determined it will take at least 100 people to speak Oneida to 
keep the language alive among our nearly 16,000 members. 
Unfortunately, to date there's only one person who has become a 
fluent speaker of Oneida as his second language, and he did 
that with his grandmother, learning right from her. And now he 
is currently teaching our trainees. There are more details of 
our program and our tribal government support for our language 
in our written comments.
    We have people who are still at the beginners stage, 
meaning they just know some basic vocabulary and they are 
teaching already, what they do know, at the daycare, the Head 
Start in our school system. We don't have any teachers for the 
students in the public schools and they are asking us for 
language and culture teachers. We could impact 2036 children 
daily if we had enough language teachers.
    While we continue to explore every possible way to keep our 
language alive, we have not yet found the key to producing 
fluent speakers. However, unlike previous generations, 
including mine, our youngest children attending Oneida child 
care, the Head Start, Oneida Nation School System, are exposed 
to the language everyday as part of their daily life.
    Additionally, from 2000 to 2003 the tribe received a grant 
from the ANA grant. This provided two more trainees in multi-
media capabilities. Our role is to produce fluent speakers who 
teach our language to the rest of the tribal members so once 
again you hear our language spoken on a daily basis.
    In summary of the bill, I took the chance to look at it, 
and I know it's crucial for the survival of native languages. 
As our language was taken away by forbidding our children to 
speak, the revitalization of our languages needs to begin with 
teaching our children again to speak our languages. I applaud 
the authors of this legislation for recognizing that we must 
begin with the children and the families. I notice the strong 
component in there for families' involvement, and that's just 
absolutely critical to a survival.
    There are several concerns I have with the legislation. Not 
major, but some. In Section 108 B No. 4, ``Provide a preference 
in enrollment for students and families who are fluent in 
native languages.'' Since we do not fit this categories and 
many nations will not, this could be restated, if you are 
willing to do this, to say ``preference for those families who 
are committed to speaking the native language,'' so that way 
you are involving the whole family. You know that the parents 
will support this when the children go home, and the parents 
will be learning also.
    In Section 108 B 6, ``ensure that a Native American 
language becomes a dominant medium of instruction in the Native 
American Language nest not later than 6 years after the date on 
which the Native American language nest first received funding 
under this title.'' Should not the requirement be that Native 
American language is the dominant language from the beginning 
of the establishment of the language nest.
    We have done some step-by-step immersion types of program, 
and we find that people will go flip back into English as soon 
as they are out of class so we need to do everything, 
everything from the minute you walk in the door, stay in the 
language.
    Section 110, Demonstration Program B 3, said 
``demonstration programs is located in the state in which at 
least seven Native American languages are spoken.'' Could this 
be a regional consortium several states, if necessary. I don't 
know that all states have seven different native languages in 
them, so that would be more inclusive.
    Without the enactment of this legislation, the prospects 
for native languages are dim, as we heard from other panelists. 
The grants awarded by ANA are so highly competitive, because 
they don't have that much funding, that we have not been able 
to receive another grant since 2003.
    Additionally, the United Nations Education and Scientific 
and Cultural Organization has adopted a series of standards 
that will critically endanger the viability for future 
generations. This legislation rights the hope with the right 
resources we should keep our native languages alive and spoken. 
Our language, Oneida language, is critically in danger, 
according to New Mexico standards, and we are working as hard 
as we can, but we really need the help.
    I had a chance at the beginning of August to go to 
Cherokee, North Carolina and see the language nest. The 
children were--there were 2-year-olds in the room I went in and 
they had been in since they were 7 weeks old and everything 
said to them those children did exactly what they were told. 
They responded that way. They were even teaching 2-year-olds 
with flash cards of the Sequoia Sillabary. There was one boy 
who knew what it meant. It was beautiful. In the other room 
were about 1-year-olds to a year-and-a-half and everything they 
did that they told them in the language, they responded. That 
just made my heart soar, and passing this legislation will also 
do that for all of us.
    [Conclusion spoken in Native American Language.]
    [The prepared statement of Ms. Cornelius follows:]

 Prepared Statement of Dr. Carol Cornelius, Oneida Tribe of Indians of 
                               Wisconsin

    She.ku kawantyokwa.
    I wish to extend a thank you to the Committee for this opportunity 
to testify on Native language.
    I would also like to acknowledge two members of our government, the 
Oneida Tribe of Wisconsin, who could join us today: Melinda Danforth 
and Paul Ninham
    The Oneida Tribe of Wisconsin is located near Green Bay, WI. Our 
tribal membership is 15,591 with 6,120 living on or near our 65,000 
acre reservation. Our homelands are in what is known today as New York 
State, and we were removed to Wisconsin in the 1820's.
    We lost most of our speakers due to historical events such as the 
boarding school and public schools. Every Oneida family has a story 
that explains why they don't speak Oneida. My grandmother said, ``the 
only way you'll make in the White man's world is to speak English.'' 
And, she refused to teach me. There are heart-rending stories of how 
our ancestors were abused, both physically and psychologically, in the 
boarding school for speaking our language.
    We have only five fluent speakers left who learned Oneida as their 
first language. Two of those are over 95 years old and unable to assist 
us anymore. Three of those Elders who are over 86 years old, work with 
our 8 language trainees for 2-7 hours per week.
    We currently have eight language trainees in our Language 
Revitalization program for our enrollment of 15,591 people. We need at 
least a hundred people speaking Oneida to keep the language alive. 
There is only one person who has been able to learn and become 
proficient in Oneida as a second language, and he learned from his 
grandmother. He is currently teaching our trainees.
    The Oneida Language Revitalization Program began in the spring of 
1996 when a survey found that only 25-30 Elders were left who learned 
to speak Oneida as their first language. A ten year plan was developed 
to connect Elders with Oneida Language/Culture Trainees in a semi-
immersion process which would produce speakers and teachers of the 
Oneida language. We began with ten Elders and five trainees. Today we 
have 3 Elders left and 8 trainees. Our trainees are in language class 
from 8:30 am to noon, and from 1pm to 3 pm daily, and then they have 1 
1/2 hours study time. They have just completed a two year program in 
basic vocabulary. These next two years they are moving into what we 
call conversational functionality, meaning they can understand when 
spoken to and respond to situational conversation in the language. The 
next phase will be the advanced, when the trainees can stay in the 
language and respond in a flowing manner, and they will be teaching the 
Nation. The Trainees utilize Oneida stories from the Works Progress 
Administration (WPA) from the 1930-1940's, and the Bilingual program 
(1970's) and are currently documenting the language by recording the 
Elders.
    We have six people who are still at the beginner speaker stage who 
are already teaching basic vocabulary for our Child Care (100 
children), Head Start (108), and our school system (350 elementary, and 
125 high school students.) These teachers have not been able to attend 
classes to advance their speaking ability due to their teaching load. 
We don't have any teachers for the students in the public schools 
(1,353 students) and these young people have asked for language 
teachers for their schools. We just don't have the language speakers/
teachers to meet the needs.
    We have tried, and are trying, every possible way to keep our 
language alive, but we have not yet found the key to producing fluent 
speakers, yet. What has changed in the current generation is that they 
are exposed to our language on a limited basis as part of their daily 
life if they go to Child Care, Head Start, and our Oneida Nation School 
system. The last two or three generations did not have that 
opportunity. Our goal is to produce fluent speakers who can teach our 
language to the rest of our tribal members so that we hear the language 
spoken on a daily basis.
    We have the support of our government as evidenced in four 
resolutions since 1994 which declare Oneida as the official language of 
our Nation, and support all efforts to regain our spoken language. We 
have an Oneida language Charter Team which works on short, 
intermediate, and long range planning. Language nests and survival 
schools have always been part of our goals.
    Our long range plans include: 1) Official recognition of our elders 
as National Treasures--completed in 2003, 2 ) Developing and 
implementing Oneida Nation Language Teacher Certification based on 
competencies in speaking, teaching, curriculum, linguistics, and 
teaching materials development, 3) Developing a career path for our 
youth to become fluent speakers and teachers, 4) Planning for summer 
immersion family language experience, 5) a radio station in the 
language, and 6) hearing Oneida language spoken throughout our Nation. 
As Oneida people, it is our responsibility to carry the Oneida language 
to the present and future generations.
    The Oneida Language Revitalization Program has a WEB site that has 
the history of the program, a page dedicated to the staff, and on-line 
language lessons.
    This legislation HR 4766 is crucial for the survival of Native 
languages which are critically endangered by UNESCO standards. Just as 
our language was taken away by forbidding our children to speak, so 
should the revitalization of our languages begin with our children 
being in language nests. I applaud the authors of this legislation for 
recognizing that we must begin with the children and their families.
    There are several areas of concern in the legislation.
    Sec 108, b # 4 ``Provide a preference in enrollment for students 
and families who are fluent in a Native American language.'' Since we 
do not fit this category, and many Nations will not, this could be 
restated to: Preference for those families who are committed to 
speaking their Native language.
    Section 108, b, 6 ``ensure that a Native American language becomes 
the dominant medium of instruction in the Native American language nest 
not later than 6 years after the date on which the Native American 
language nest first received funding under this title.'' Should not the 
requirement be that the Native American language is the dominant 
language from the beginning of the establishment of the language nest?
    Sec. 110 Demonstration Program b, 3 ``is located in a State in 
which at least 7 Native American languages are spoken'' Could this be a 
regional consortium of several States if necessary?
    We had an ANA grant from 2000-2003 which provided two more trainees 
and multi-media capabilities. However, because ANA has limited 
resources its grants are so highly competitive we have not been able to 
receive approval of a grant since 2003. This legislation provides the 
hope that with the right resources we could keep our Native languages 
alive.
    Yawko, Dane.ho.
                                 ______
                                 
    Chairman McKeon. Thank you. Mr. Montoya.

   STATEMENT OF SAM MONTOYA, LANGUAGE & CULTURAL RESOURCES, 
                ADMINISTRATOR, PUEBLO OF SANDIA

    Mr. Montoya. [Introduction spoken in Native American 
language.]
    In my language that means, ``How are you this afternoon''? 
My name is Sam Montoya. I am from Sandia Pueblo where I serve 
as the Tribe's Language and Cultural Resource Administrator. I 
work with other tribal members to support policies and 
procedures that will encourage the preservation of our language 
and culture at Sandia.
    Chairman McKeon, Vice Chairman Petri, Representative Wilson 
and Representative Udall, I thank you for the opportunity to 
discuss native language programs in New Mexico. I hope this 
meeting will be productive step encouraging native language use 
in our communities. Thank you for introducing the proposed 
legislation.
    Today I'm going to discuss briefly the state of languages 
at Sandia Pueblo, what we have done so far and suggestions for 
ways in which lawmakers here and in Washington can support our 
efforts and the efforts of our tribal groups. I grew up 
speaking Southern Tiwa at home with my parents and 
grandparents. Many other people of my generation went to Indian 
school in Albuquerque or Santa Fe but I attended school in 
Bernalillo. A lot of Indian-schooled people were punished for 
speaking native languages and told that English was the 
language of school and work. These people returned home and 
wanted to make things easier for their children, started 
speaking English more in the home. As a result, I am one of the 
youngest speakers of Sandia Tiwa. I am 60 years old.
    Even though children in the Pueblo attend schools in 
Bernalillo and Albuquerque now, the missing generational link 
in terms of language transmission at home has meant that fewer 
and fewer people are able to speak our language. Community 
members speak English at work, return home, watch programs in 
English and listen to music in English words. Our language is 
one of the important connections we have to history, our 
culture, our land, and our future as Pueblo people.
    During the last 20 years people in the community realize 
that the language was indeed passed down and have taken steps 
to promote language learning. Since starting to work on 
language preservation for the tribe, I have been working with 
other education staff to expand these efforts. Our approach has 
been to try to create as many different kinds of learning tools 
as possible while ensuring that the Sandia Tiwa language 
remains in the community.
    So far we have developed an alphabet enabling us to write 
the language, finished the first draft of the Tiwa/English 
Dictionary, completed a 15-lesson dialog-based adult 
curriculum, developed materials for use in the Head Start 
classrooms and started a Master-Apprentice Program. In 
addition, we have just received word that money has been made 
available for tribal members from Sandia to teach the language 
to committee members attending Bernalillo County public 
schools.
    We are especially excited about the Master-Apprentice 
program at Sandia. Because we have few speakers, it is 
difficult to create situations where total immersion can take 
place, situations where a large group of people are speaking 
nothing but Tiwa in order to teach the language in the way it 
was traditionally passed down--orally. The Master-Apprentice 
program pairs the speaker or a master with a language learner 
or apprentice for sessions where instruction in the language 
can take place anywhere--at home, walking around in the Pueblo, 
at the store. While these individual immersion sessions can 
take place outside of the classroom environment, which is the 
ideal learning situation, we still support making other written 
tools for learners to use. After the learner has worked with 
the teacher, written materials can help supplement language 
skills or can be used during times that the teacher is not 
available. It is our belief that because there are so many 
different types of learners, it is up to us to provide as many 
different materials as possible, some written, some oral, to 
support learners and encourage them to speak Tiwa whenever they 
can.
    Although writing is controversial in Pueblo communities, 
and many others, we are committed to implementing the change 
while preserving our right to control the written materials 
created for language instruction.
    The benefits of encouraging indigenous language use in our 
community are numerous. For instance, many of the children at 
Sandia have recently been learning to use traditional greetings 
for adults, Nana and Tata. These titles indicate respect in the 
presence of family structure that extends beyond the nuclear 
model with all adults responsible for guiding children in the 
Pueblo and all children recognizing older people as respected 
elders. Similarly, people are using the Tiwa names for native 
plants used for medicinal purposes. As you can see from these 
examples, not everything about our culture that our language 
captures can be simply translated into English.
    Another benefit in our community we have seen as a result 
of expanding our language program is language use is now 
something that people discuss, even individuals who are not 
currently active as teachers or learners. For example, people 
often avoided talking about the history of forced assimilation 
in boarding schools I mentioned earlier because of feelings of 
shame and regret associated with the experience there and the 
resulting language loss. After educating ourselves about 
language loss and revitalization and realizing we are one of 
the communities facing such issues, community members at Sandia 
are more likely to participate in language programs and talk 
about what should be done.
    Finally, we believe that growing up in a bilingual 
community is a asset, not a liability. As psychologists and 
linguists have found, children who are able to communicate in 
two or more languages have an easier time learning additional 
languages and new skills. We would like to offer all the 
advantages of language learning, both specifically and 
generally, to our children.
    In order to continue the expansion of the Sandia Tiwa 
language program and realize these benefits, I welcome the 
chance to make several suggestions regarding what can be done 
at the national level to support our community-based efforts of 
other tribal groups. For the last 4 years, we have been working 
with a linguist who helped us to develop our alphabet and other 
materials. She was fortunate enough to be the recipient of the 
National Science Foundation/National Endowment for the 
Humanities Documenting Endangered Languages Fellowship last 
year, which allowed her to devote her time to working with 
myself and other education staff on the language program and to 
train tribal members on using the alphabet and developing Tiwa 
materials. We strongly recommend increasing funding for this 
program and others like it so those that can offer technical 
support to tribes can apply for funding as well as tribal 
members could be compensated for the time spent participating 
in activities such as the Master-Apprentice program, or working 
on new language materials for the community.
    I would like to stress all the materials documented as part 
of this grant are being archived at the Pueblo library. The 
absolute necessity of recognizing the native people should 
decide who has access to language materials, and how to 
approach language revitalization in the individual communities 
must be part of the new program funding as well.
    As I mentioned before, we have recently received word that 
there is an opportunity for Sandia Pueblo to choose a community 
member to teach Tiwa language in the Bernalillo County Schools. 
This is an important step for the State of New Mexico. We would 
also like to see, as part of this program, more instructional 
support to help such programs get off the ground. As many of 
you in this room who are from communities who have already 
participated in the program know, people who are fluent 
speakers do not always have classroom experience and have to 
develop all their own teaching materials. Providing training on 
curricular design, second language learning and teaching should 
be a part of this program which would allow new teachers to be 
supported during the first year of instruction.
    Again, increasing funding opportunities for tribes 
participating in the process would be helpful. In terms of more 
intangible ways that we feel our elected representatives can 
support community efforts to promote indigenous language use, 
we urge you to withhold support for so-called ``English Only'' 
legislation which aims to establish English as the official 
language of the United States, and support bilingual education 
in general.
    Although Native peoples are part of the individual 
sovereign nations, we also have a stake in the national 
language debate as decisions made about policies affect the 
schools we attend and our participation in the state and 
national programs.
    Trying to establish English as the only official language 
in this country erases our hard-earned claims to sovereignty 
and sends a message to our children that our languages are not 
as valued or as important as English. This runs counter to all 
of our efforts as indigenous people to reverse language loss 
and take control of the language policy in our communities.
    Thank you all so much for inviting me to talk a little bit 
about language at Sandia Pueblo, and I look forward to working 
with all of you to in New Mexico. Thank you.
    [The prepared statement of Mr. Montoya follows:]

   Prepared Statement of Sam Montoya, Language and Cultural Resource 
                    Administrator, Pueblo of Sandia

    Hinu mam kima? In our language this means How is your afternoon 
going? My name is Sam Montoya. I am from Sandia Pueblo, where I serve 
as the Tribe's Language and Cultural Resource Administrator. I work 
with other tribal members to support policies and procedures that will 
encourage the preservation of our language and culture at Sandia.
    Chairman, McKeon, Vice Chairman Petri, Representative Wilson, and 
Representative Udall, I want to thank you for the opportunity to 
discuss Native language programs in New Mexico. I hope that this 
meeting will be a productive step in encouraging Native language use in 
our communities.
    Today I am going to discuss briefly the state of language use at 
Sandia Pueblo, what we have done so far, and suggestions for ways in 
which lawmakers here and in Washington can support our efforts and the 
efforts of other tribal groups. I grew up speaking Southern Tiwa at 
home with my parents and grandparents. Many other people of my 
generation went to Indian School in Albuquerque or Santa Fe, but I 
attended school in Bernalillo. While at Indian School, people were 
punished for speaking their Native languages, and were told that 
English was the language of school and work. These people returned home 
and, wanting to make things easier on their kids, started speaking 
English more in the home. As a result, I am one of the youngest 
speakers of the Sandia Tiwa language.
    Even though children from the Pueblo attend school in Bernalillo or 
Albuquerque now, this missing generational link in terms of language 
transmission at home has meant that fewer and fewer people are able to 
speak our language. Community members speak English at work and return 
home and watch programs in English and listen to music with English 
words. Our language is one of the most important connections we have to 
our history, our culture, our lands, and to our future as Pueblo 
people.
    During the last twenty years, people in the community realized that 
the language wasn't being passed down, and have taken steps to promote 
language learning. Since starting to work on language preservation for 
the tribe, I have been working with other Education staff to expand 
these efforts. Our approach has been to try to create as many different 
kinds of language learning tools as possible while ensuring that the 
knowledge of the Sandia Tiwa language remains in the community. So far 
we have developed an alphabet enabling us to write our language, 
finished the first draft of a Tiwa/English Dictionary, completed a 
fifteen lesson dialogue-based adult curriculum, developed materials for 
use in our Head Start classrooms and started a Master-Apprentice 
Program. In addition we have just received word that money has been 
made available for a tribal member from Sandia to teach the language to 
community members attending Bernalillo Public Schools.
    We are especially excited about the new Master-Apprentice program 
at Sandia. Because we have so few speakers, it is difficult to create 
situations where total immersion can take place--situations where a 
large group of people are speaking nothing but Tiwa in order to teach 
the language the way it was traditionally passed down--orally. The 
Master-Apprentice Program pairs one speaker or ``Master'' with one 
language learner or ``Apprentice'' for sessions where instruction in 
the language can take place anywhere--at home, walking around the 
Pueblo, at the store. While these individual immersion sessions can 
take place outside of the classroom environment, which is the ideal 
learning situation, we still support making other, written tools for 
learners to use. After a learner has worked with their teacher, written 
materials can help to supplement language skills, or can be used during 
times that a teacher is not available. It is our belief that because 
there are so many different types of learners, it is up to us to 
provide as many materials as possible--some written, some oral--to 
support learners and encourage them to speak Tiwa whenever they can. 
Although writing is controversial in Pueblo communities, and many 
others, we are committed to implementing this new change while 
preserving our right to control the written materials created for 
language instruction.
    The benefits of encouraging indigenous language use in our 
community and others are numerous. For instance, many of the children 
at Sandia have recently been learning to use the traditional greetings 
for adults: Nana and Tata. These titles indicate respect and the 
presence of a family structure that extends beyond the nuclear model, 
with all adults responsible for guiding children at the Pueblo and all 
children recognizing older people as respected elders. Similarly, 
people are learning the Tiwa names for native plants that can be used 
for medicinal purposes. As you can see from these examples, not 
everything about our culture that our language captures can be simply 
translated into English. Another benefit to our community that we have 
seen as a result of expanding our language program is that language use 
is now something people discuss, even individuals who are not currently 
acting as teachers or learners. For example, people often avoided 
talking about the history of forced assimilation in boarding schools I 
mentioned earlier because of feelings of shame and regret associated 
with experiences there and the resulting language loss. After educating 
ourselves about language loss and revitalization and realizing that we 
are one of many communities facing such issues, community members at 
Sandia are much more likely to participate in language programs and 
talk about what should be done. Finally, we believe that growing up in 
a bilingual community is an asset, not a liability. As psychologists 
and linguists have found, children who are able to communicate in two 
or more languages have an easier time learning additional languages and 
accomplishing new tasks. We would like to offer all the advantages of 
language learning, both specific and general, to our children.
    In order to continue the expansion of the Sandia Tiwa language 
program and realize these benefits, I welcome this chance to make 
several suggestions regarding what can be done at the national level to 
support our community based efforts and the efforts of other tribal 
groups. For the last four years we have been working with a linguist 
who has helped in the development of our alphabet and other materials. 
She was fortunate enough to be a recipient of the National Science 
Foundation/National Endowment of the Humanities Documenting Endangered 
Languages Fellowship last year, which allowed her to devote her time to 
working with myself and other Education staff on the language program 
and to train tribal members on using the alphabet and developing Tiwa 
materials. We strongly recommend increasing funding for this program, 
and others like it, so that those that can offer technical support for 
tribes can apply for funding as well as tribal members who could be 
compensated for their time spent participating in activities such as 
the Master-Apprentice Program, or working on new language materials for 
the community. I would like to stress all materials produced as part of 
this NSF/NEH grant are being archived at the Pueblo library. The 
absolute necessity of recognizing that Native people should decide who 
has access to language materials and how to approach language 
revitalization in their individual communities must be part of any 
funding program as well.
    As I mentioned before, we have recently received word that there is 
an opportunity for Sandia Pueblo to choose a community member to teach 
the Tiwa language in the Bernalillo Schools. This is an important step 
forward for the State of New Mexico. We would also like to see, as part 
of this program, more institutional support to help such programs get 
off the ground. As many of you in this room who are from communities 
who have already participated in this program know, people who are 
fluent speakers do not always have classroom experience, and have to 
develop all of their own teaching materials. Providing training on 
curricula design, second language learning and teaching should be part 
of this program, which would allow new teachers to be supported during 
the first years of instruction. Again, increasing funding opportunities 
for tribes participating in this process would be helpful.
    In terms of more intangible ways that we feel our elected 
representatives can support community efforts to promote indigenous 
language use, we urge you to withhold support of so-called ``English 
Only'' legislation, which aims to establish English as the official 
language of the United States, and support bilingual education in 
general. Although Native peoples are part of individual sovereign 
nations, we also have a stake in the national language debate as 
decisions made about policy affect the school we attend and our 
participation in State and National programs. Trying to establish 
English as the only official language of this country erases our hard-
earned claims to sovereignty and sends a message to our children that 
our languages are not as valued or important as English. This runs 
counter to all of our efforts as indigenous people to reverse language 
loss and take control of language policy in our communities.
    Thank you all so much for inviting me to talk a little bit about 
language at Sandia Pueblo, and I look forward to working with you all 
to increase Native language use here in New Mexico.
    Haweu.
                                 ______
                                 
    Chairman McKeon. I thank each and every one of you who 
attended this hearing today.

   STATEMENT OF KIMBERLY J. TABAHA, SENIOR, WINDOW ROCK HIGH 
                             SCHOOL

    Ms. Tabaha. Ya'ateeh to each and every one of you who are 
attending this hearing today.
    [Portion spoken in Native American language.] What that 
means in my language is, ``My clan are Red Running Into the 
Water People clan.'' My maternal grandfather is Red Bottom 
People clan and my paternal grandfather is Water Edge People 
clan. I am 17 years old and currently a senior at Window Rock 
High School. My parents are George and Imogene Tabaha. I am 
second oldest of my siblings. I have one older brother who 
recently graduated and three younger brothers. All together, I 
have a family of seven. We reside in Coalmine, New Mexico. We 
moved closer to my mother's relatives because, as my culture 
usually says, the husband would have to move or the wife goes.
    First of all, I would like to thank the committee and, of 
course, Darrel Begay for the opportunity of a lifetime for me 
to share with you my way of expressing my culture. Good 
afternoon to the honored guests, dignitaries and the audience 
who are present here on this fine afternoon.
    I am here sitting in front of you all today to share how my 
Dine culture helped me through my life. I started out in a 
Navajo immersion program since my kindergarten days. I have 
been a part of many cultural events and I still continue today.
    My Navajo tradition is important aspect of my life, my 
family, my friends and my fellows in the Nation. I joined a 
princess pageant during my Middle School year that required 
native talent and speeches written in Navajo. I was devastated 
to know that not even half of the contestants could speak their 
own Native tongue but they all were excellent and that is why I 
am here today to strongly support the Navajo immersion classes 
to continue that will benefit all the younger generations from 
here as long as we have your full support.
    My language helped me obtain a title that I well deserved 
and am proud of. I was the Miss Tse Ho Tse Middle School 
princess and I represented my school well. To be honest, I was 
proud to know my knowledge of my language and traditions which 
gave me a strong self-esteem to succeed in school. To me and 
most of my peers, also some of the adults, say our language 
itself has many meanings symbolizing our way of life. My 
teachers, Ms. Lydia Fasthorse Begay and Lucy Antone and my 
parents agree with what I am representing to you all. Their 
support is what I have right now, including many other 
supporters. The grievance our grandparents go and still go 
through is knowing they couldn't really rely on their grandkids 
who don't know nothing of their native tongue.
    Yes, we do have Navajo classes located in our schools but 
what of the other schools that don't? Not all Dine are learning 
their language and it hurts me and our parents, mainly our 
grandparents. Some say our language is on the verge of 
extinction and my generation has a chance to save our language. 
How can we if there's only two or three schools located in the 
country who have Navajo classes as one of their subjects? We 
need more Navajo language programs provided to us teen-agers 
and young children around.
    I once saw a movie that said, ``With great power comes 
great responsibility'' and I strongly agree. Our weapon to 
society is our language and that gives us strength to go on and 
pursue our dreams. From experience I know my Navajo tradition 
has made me see beyond what I thought and wondered about my 
whole life. For example, I plan to attend college and major in 
computer science. Being a part of something that means on lot 
to more than one person is something I have foreseen a lot in 
my younger days but many students don't really have the same 
vision as some of us because they don't have the encouragement 
very few of us young adults have.
    But the future now holds the truth of how our language and 
tradition can change the course of the future. I will maintain 
and balance my tradition, including my language, along with the 
Western way of life, and I leave that up to you all. If you do 
consider more schools with Navajo immersion classes, I'm sure 
we will have the chance to save our Dine language. Thank you 
all for your time and your strong support to keep our Navajo 
immersion class going.
    [The prepared statement of Ms. Tabaha follows:]

 Prepared Statement of Kimberly J. Tabaha, Student of Window Rock High 
                                 School

    Ya'ateeh, each & every one of you who are attending this Hearing 
today. First of all I would like to thank Congressman Mr. Rick Renzi, 
Mr. Daryl Begay for this opportunity of a life time to share with you 
my way of expressing my Dine Culture. And Good Morning to the honored 
guess, distinguish guess, dignitary guess and the audiences who are 
present here this fine morning.
(Introduction in Navajo but revised in English)
    Hello my name is Kimberly Tabaha. My clans are Red Running into the 
water people clan, born for the Towering House clan, My Maternal 
Grandfather is Red bottom people clan, My Paternal Grandfather is Water 
Edge People Clan. I'm 17 years old and currently a senior at Window 
Rock High School. My parents are George and Imogene Tabaha. I am the 
second oldest of my siblings. I have one older brother who recently 
graduated and three younger brothers. All together I have a family of 
seven. We reside in Coalmine, New Mexico, we move closer to my mother 
relative because as the culture usually says the Husband would have to 
move where his wife goes.
    I'm standing here in front of all of you today to share how my Dine 
Culture helped me through my life. I started out in Navajo Immersion 
Program since my kindergarten days. I've learned many of my Navajo 
Traditional value since then. I have been apart of many cultural events 
and I still continue today. My Navajo Tradition is an important aspect 
of my life, family, friends, and my fellow Dine Nation.
    I've joined the Princess Pageant during my Middle School year that 
required native talent and speeches written in Navajo. I was devastated 
to know that not even half of the contestant couldn't speak there own 
native tongue but they all were excellent. And that is why I am here to 
strongly support the Navajo immersion classes to continue that will 
benefit all the younger generation from here as long as we gat your 
full support. My language helped me obtain a title that I well deserved 
and most proud of. I was the Miss Tse Ho Tso Middle School Princess, 
and I represented my school well. To be honest I was proud to know my 
knowledge of my language and tradition.
    To me and most of my peers also some adult say our language itself 
has many meanings symbolizing our way of life. My teachers Mrs. Lydia 
Fasthorse Begay and Mrs. Lucy Antone and my grandparents agree with 
what I'm presenting to you all. There support is what I have right now 
including many others supporters. The grievance our grandparents go and 
still go through is that knowing they couldn't really rely on there 
grandkids who don't know nothing of there native tongue. Yes, we do 
have Navajo classes located in our schools but what of the other school 
that don't? Not all our Dine are learning there language and it hurts 
me and our parents, mainly our grandparents. Some say our language is 
on the verge of extinction and my generation has a chance on saving our 
language. How can we, If there is only two or three school located in 
the country who have Navajo classes as one of there subjects. We need 
more Navajo language programs provided to teenagers and young children.
    I once saw a move that said ``With Great Power comes Great 
Responsibility * * *'' and I strongly agree. Our weapon to society is 
our language and that gives us strength to go on and pursue our dreams. 
From experience I know my Navajo Tradition has made me see beyond what 
I have thought and wondered about my whole life. Being apart of 
something that means a lot to more than one person is something I have 
foreseen in my younger days. But many students don't really have the 
same vision as some of us because they don't really have the 
encouragement and the classes very few of us young adults have. But the 
future now holes the truth of how our language and tradition can change 
the course of the future. And I leave that up to you all, and if you do 
consider more school with the Navajo immersion classes I'm sure we will 
have the chance on saving our dine language.
    Thank you for you time and your strong support to keep our Native 
Immersion class going.
                                 ______
                                 
    Chairman McKeon. We only have about 20 minutes left, so Ms. 
Wilson, would you please lead us out in the questioning.
    Mrs. Wilson of New Mexico. Thank you Mr. Chairman. With 
your permission, I would like to enter into the record a 
resolution of support from All Indian Pueblo Council.
    Chairman McKeon. No objection.
    [The resolution referred to follows:]

               The National Congress of American Indians

                         Resolution #ABQ-03-026

TITLE: Reaffirmation of Tribal expertise on all issues pertaining to 
        heritage language and cultural knowledge

WHEREAS, we, the members of the National Congress of American Indians 
        of the United States, invoking the divine blessing of the 
        Creator upon our efforts and purposes, in order to preserve for 
        ourselves and our descendants the inherent sovereign rights of 
        our Indian nations, rights secured under Indian treaties and 
        agreements with the United States, and all other rights and 
        benefits to which we are entitled under the laws and 
        Constitution of the United States, to enlighten the public 
        toward a better understanding of the Indian people, to preserve 
        Indian cultural values, and otherwise promote the health, 
        safety and welfare of the Indian people, do hereby establish 
        and submit the following resolution; and

WHEREAS, the National Congress of American Indians (NCAI) was 
        established in 1944 and is the oldest and largest national 
        organization of American Indian and Alaska Native tribal 
        governments; and

WHEREAS, universities and colleges historically have been considered 
        the education experts for the training of the teachers of our 
        children;

WHEREAS, the public school system has historically determined the 
        educational standards for our children;

WHEREAS, Indian people have been led to believe through the practices 
        of this educational system that these standards are the best 
        for our children;

WHEREAS, First peoples' languages are falling silent due to both past 
        and present education and assimilation policies in the United 
        States;

WHEREAS, our heritage languages are an integral part our cultures and 
        identities and form the basic medium for the transmission, and 
        thus survival, of our cultures, literatures, histories, 
        religions, political institutions, and values;

WHEREAS, languages are the means of communication for the full range of 
        human experiences and are critical to the survival of cultural 
        and political integrity of any people;

NOW THEREFORE BE IT RESOLVED, that the NCAI does hereby reaffirm the 
        inherent sovereign rights of our Indian nations, rights secured 
        under Indian treaties and agreements with the United States, 
        and all other rights and benefits to which we are entitled 
        under the laws and Constitution of the United States; and

BE IT FURTHER RESOLVED, that NCAI does hereby reaffirm that sovereign 
        tribal nations are the sole owners of Native cultural property 
        rights and sole experts of their heritage languages and 
        cultural knowledge and shall be consulted in all matters 
        regarding the conceptualization, development and implementation 
        of any language/culture initiative, research or program; and

BE IT FURTHER RESOLVED, that no language/culture policy will be 
        conceptualized, developed or implemented without the direct 
        involvement of sovereign tribal nations; and

BE IT FINALLY RESOLVED, that this resolution shall be the policy of 
        NCAI until it is withdrawn or modified by subsequent 
        resolution.
                             certification
    The resolution was adopted at the 60th Annual Session of the 
National Congress of American Indians, held at the Albuquerque 
Convention Center, Albuquerque, New Mexico, on November 21, 2003, with 
a quorum present.
    Adopted by the General Assembly during 60th Annual Session of the 
National Congress of American Indians, held in Albuquerque, New Mexico, 
from November 17-21, 2003.
                                 ______
                                 
    Mrs. Wilson of New Mexico. Thank you, Mr. Chairman. Dr. 
Cornelius, I have to say any class that can get 2-year-olds to 
do what they are told has more going for it than just language. 
I want to know what the secret is there. I really have one 
question of really the four of you: Dr. Cornelius, Mr. Ryan, 
Dr. Sims and Mr. Montoya.
    That is, what are the characteristics of language programs 
or language recovery programs that make them successful? I know 
there are probably some that work better than others. What are 
the things that make a good or successful immersion or recovery 
program and so how do we make sure that this works? And what 
have you seen from your experience? If the four of you would 
comment on the question, I would appreciate it.
    Mr. Wilson. That's the first time I have seen Chairman 
Shije give up a mike. What I believe is important in this bill 
is it creates a demonstration project, whatever that may be, to 
exactly extrapolate what are those elements that make that 
happen. What we have seen through visiting these programs in 
schools is what Dr. Cornelius said is complete immersion, for 
one thing. That's a critical element of it. It's that when you 
walk through those doors and you are around it, you are 
completely 100 percent immersed in that particular language of 
that tribal community.
    We have spent millions of dollars over the years since this 
Native American Language Act was passed on programs, on 
activities, on camps, on cultural stuff that hasn't created 
fluent speakers. What we have seen that actually works to 
create fluent speakers and the young people that can complete 
academically in mainstream is the complete immersion. The 
ownership of the--the panel talked about this as well. It's a 
sense of validation, sense of ownership in the school. You talk 
to any young people all over. We don't have these big alumni 
associations to donate back to their schools because they never 
felt that they owned the school in the first place. That's not 
happening. There's incredible sense of pride from the students 
coming out of them.
    Ms. Sims. I think what I would like to add to that is some 
key things that we have observed in terms of language immersion 
programs that we have here in our own communities, and one 
thing that is very key is that you have people who are trained, 
who know something about language teaching. That's crucial. 
That is why we advocate so strongly and underscore the need for 
training native speakers who can teach language.
    You must realize for many of our communities this is a 
fairly new thing to be actually teaching language. Because up 
to a certain period of time in our history, languages were 
strong. Now that we have generations who don't learn or know 
the languages as their first languages, then you need to have 
folks who understand the principles of how languages work. So 
training is an important one.
    Beyond that, we know that the consistency and the long-term 
opportunity that children have to learn language is also very 
key. We are not talking about language programs that go from 
kindergarten and suddenly stop at Grade Three. We are talking 
about the need to develop language and let that language grow 
all the way through secondary school and beyond. So that's 
another key element.
    The other key element I think that we find especially among 
our programs is--and I don't know how you quantify this, but 
it's an element of the teachers using curriculum, using lessons 
that come from the children's communities themselves. That 
provides the relevancy of language teaching and it also 
provides a way in which children learn the context for how the 
languages are used so that ties in the link, the people who 
come from the community, who are trained, that link that comes 
from using the things that come from the community as the 
vehicles for language teaching, those are some of the most 
critical elements that we see time and time again.
    Ms. Cornelius. We tried for a while--we had a program--our 
trainees were still learning but we sent them out to families. 
And the rules were that the family had to make the commitment 
they would all be there. They would turn off the T.V., turn off 
the telephone, the cell phones, everything. Everything was on 
hold for that couple hours. And what we found was that you 
would start with the family, like the nuclear family, and 
pretty soon grandma was coming and uncles and the aunties were 
coming and cousins would start. Of course, we would have to 
eat, so it was always around suppertime, but we found that to 
be one of the better ways to learn the language.
    But in time, though, there has to be a way to structure 
around, like you are saying, curriculum and units of 
accomplishment because all the sudden the kids are in 
basketball and baseball so they have other activities, so if we 
could do it so the families make this commitment, say 2 months 
at suppertime everyday--once a week doesn't work, found that 
out--everyday we will do the language, be learning, and after 2 
months take a break and start again for a little while, you 
know, for a period of time, that that may even help.
    But that family commitment, having the whole family 
involved in the language makes a tremendous difference. I think 
that's the success of the family nest. That was the grandma who 
started that with the little ones, and was with them all the 
time. So I think that's critically important.
    Also keeping the culture, the values. Last week our 
trainees went out berry picking. It's that time of year. But 
they did it in the language. So it's what you are doing. Then 
we have a ceremony that goes with that, so that the values and 
the traditions, our beliefs that I must say.--native words--
what our mother earth teaches us is incorporated in everything 
we learn. There's a lot of ways and I have totally back-trained 
teachers. I think the lessons, too. That's very important.
    Mr. Montoya. I think for successful program, it has to be 
community. You know, you want to have teachers, you want to 
have masters, apprentices, but it has to be something that is 
committed to by the whole community. Because the classroom is 
wherever you are and you create your own opportunities, and 
many times the teacher is looked upon as she is the one that's 
going to do it. In actuality, the apprentice has to take half 
the responsibility to say, hey, ``Wait a minute, I am just 
trying to learn. Be patient.'' They have to learn to say, 
``Again''? They have to learn to say, ``Slower,'' so for people 
like myself, one of the things that I had to learn was that we 
started with vocabulary. We started under the assumption that 
there was no embarrassment and no guilt on the part of the 
people that didn't know their language.
    And many times I noticed that they were so busy trying to 
keep away from each other what they didn't know that most of 
their effort was toward that and it impaired trying to absorb 
the language. So the culture has to be there to bring this 
thing together and everybody pulling toward wanting to learn. 
Everybody is a master and everybody is an apprentice.
    So I think the other consideration that's very important, 
you have to spend time. Just because you are a fluent speaker 
doesn't mean that you are a teacher or you have the ability. 
There has to be curricular design. There has to be patience on 
the part of the master. Because I thought that somebody could 
say something ten times and the apprentice would be able to 
pick it up. Not necessarily so.
    In reading other efforts throughout the world, not just in 
this area, it's not unreasonable to expect somebody to have to 
say something 350 times in order to get it right because they 
didn't hear it well enough, they didn't say it. They don't 
recognize things like toa which is meat, and doa which is hip. 
And they don't recognize the sounds that don't exist in 
English. In my language, there's 15 sounds that don't exist in 
English.
    So in my efforts to teach vocabulary, I ended up having to 
back off of vocabulary and teach how to make sounds like cha, 
like ta like pa. Kind of silent sounds. So now we have 
characters for all of those in our alphabet. We have a 36-
character alphabet. It has almost all of the sounds of English 
except C, J, C, X and one more letter. I can't remember what 
that is. But we do have 15 sounds that don't exist in English 
and if you are a nonspeaker, you have to learn to make those 
sounds before you can say a word because you might say a word 
and get slapped in the face. So you have to get down to some 
very basics and you have to get rid of the shame and get rid of 
the guilt and it has to be community.
    Mrs. Wilson of New Mexico. Thank you, Mr. Chairman.
    Chairman McKeon. Thank you very much. Mr. Udall.
    Mr. Udall of New Mexico. Thank you Mr. Chairman. All of you 
on the panel, I think, a very powerful testimony to support 
immersion programs, and I think it demonstrated for us how 
important native languages are to continuing native traditions. 
And we know from language experts, I think, a couple things 
that are important here that I want to ask you about.
    First of all, when you have a newborn, a newborn knows and 
can recognize all the sounds needed for learning any language, 
and we also know it's much easier to learn languages at an 
early age, and if you learn two languages you are then able to 
learn other languages more quickly. So knowing that and looking 
at the bills that are before this committee, all of these bills 
create Native American immersion programs, which I think we are 
all in agreement that these are very important programs.
    My question goes to the idea of you have what in the bills 
are called language nests which serve children under the age of 
seven and their families, and you have language survival 
schools serving students in elementary and secondary schools. 
Should we be putting our limited dollars toward the earliest 
stages or should we be spreading them out from the early ages 
on up? I am just wondering if you can comment a little, too, on 
the kinds of programs. I mean, I have seen at many of the 
Pueblo where they get the grandmas and grandpas into Head Start 
and try to get at those very, very early ages.
    So what are the mechanisms that we should be utilizing that 
you know about to assist in moving language learning along as 
quickly as possible at the right age? Thank you. Any panelist 
that would like to jump in on that, please.
    Ms. Cornelius. What we found is that we are teaching like 
just basic vocabulary with the little ones in the child care 
and the Head Start, but they learn a little prayer they say 
before they eat. It's just beautiful and I have taught the 
management people my age with that prayer because we don't want 
to be behind these little kids. They are doing so great.
    But then after you get through Head Start they have the 
choice, they can go to five public schools or to our tribal 
school. The majority, about 400 and some go to the tribal 
schools, so there's another 1500 going to public schools, and 
then they lose it. So that's why I really liked in this bill 
that you were going to do the nest and really get them speaking 
and put them in survival schools so then keep on learning and 
speaking. Otherwise, I have parents come to me and say, ``They 
used to be able to say all of that. Now in third grade they 
don't know it anymore.'' I said, ``It's in there. It's tucked 
away. But they have gotten out of the chance to learn.'' So I 
think the emphasis on the little ones and the progression in 
the school they are going to is crucial.
    Ms. Sims. Limited dollars are always, you know, something 
that all of us, I guess, contend with, especially when you have 
limited resources in communities. From the example that we have 
here in New Mexico of one language nest actually that is the 
Pueblo of Cochiti. Many of the resources that we see are 
needed, yes, need to be put into programs where we provide 
children that very early experience in language development. 
When you figure that two and 3-year-olds are just right at the 
cusp of all kinds of learning, development potential, it makes 
sense that we start with providing funding for those kinds of 
programs.
    But as well, if we are to realize that these children need 
that support and consistency in language learning throughout 
their school years, then we have to think about those resources 
also spread as well, not just elementary school but also 
through high school. I mention that simply because we see so 
much of the efforts that have gone into early language nests 
like, say, the Pueblo of Cochiti. We see the efforts that some 
communities put in organizing summer immersion language 
programs which are community-based efforts. Those should also 
be available for funding support. We also see the kinds of 
efforts that are taking place in the public schools where we 
find heritage language programs being implemented. And it's at 
that particular stage also, middle school, high school, where 
some of these first kinds of things are--children are 
developing in terms of their identity where that language 
becomes so crucial, and we see that in the high school 
immersion classes that we do have in two communities, two or 
three communities here in New Mexico, where secondary kids need 
that support because it really, I think, provides them the kind 
of foundation that prepares them for life-long language 
learning, not just in schools but also beyond. So when you ask 
where do we spread limited resources, I have to say from the 
earliest all the way up to the secondary.
    Mr. Shije. Representative Udall and members of the 
committee, to answer that question I think my viewpoints are 
probably going to be a little different from what you heard. In 
my own experience, I believe when a child is born--because 
Pueblo themselves here in this region, some of them are--a 
majority of them, let's say a majority of them are very 
traditional. So when a child is born, that child receives a lot 
of attention. Not only from the parents but also from the 
grandparents and the close relatives that are nearby.
    Where the child starts encountering some problems as far as 
the language barrier is not in the early ages but once they 
start going to school, because these children at that point in 
time are receiving a lot of pressure. They are under some 
tremendous pressure from not only the parents or relatives 
telling them that, ``You have to learn your language first.'' 
They are told that and they try to do that to the best of their 
ability and a lot of them do succeed. But when they start going 
to the school systems, then the school systems is telling them, 
``You have to learn English. That is priority over your native 
language.'' And then all the sudden they are confused.
    They are asking themselves, they are asking their parents, 
they are asking, ``what are he we supposed to do? Which 
language is more important for us''? And so my thinking is 
where the monies start coming in is right at that age where the 
students start going to school. That's where the limited funds, 
as you call it, should be sent to the school system. From that 
point on, I believe the child will learn from, as we did, those 
of us who grew up at my age group. We played together, you 
know, and we always stuck to each other. I mean, we don't see 
that anymore. These young people have cars and they can just 
jump in the car and go off someplace else, and be doing 
something other than what we grew up doing.
    So my thinking is these funds should be immersed into once 
a child is entering school, from that point on you need to hire 
staff people that can teach these young people the language or 
anything having to do with their culture and tradition. That's 
what I talked about earlier regarding the Zia Elementary School 
where one individual was teaching it. That doesn't do justice 
to those kids nor does it do justice to the teacher because she 
also has other functions within the school system where she 
drives the bus or helps out with some of the other classroom at 
the schools. So that would be my answer.
    Mr. Montoya. We are making a game of catch-up here. The 
community, in terms of its heritage language, is lacking in the 
community itself. So in my view, it's very important that it 
starts at infancy. But it needs to continue beyond the school 
level because our experience has been that children are going 
home, beginning to speak and ask questions, ``pass the salt,'' 
so on at the meal, and the parents don't know what's going on. 
So we are trying to build curriculums that are responsive at 
all levels.
    But it's very important that we start with infancy where 
they can recognize the sounds that don't exist in English and 
they need the exercise for the tongues to learn how to make 
those sounds. They are going to learn English. There's no 
problem with that. But they need to learn how to make the 
sounds that don't exist in English.
    Ms. Tabaha. I have to say I have a little brother who is 
now 2 years old and I have been teaching him Navajo for I don't 
know how long now, and I agree that it should start from 
infancy because, like he said, they need to learn to adjust to 
the way it is taught.
    So what the teachers have been doing and the principal at 
Navajo immersion has been doing is they have a program that is 
set from six to eight or six to eighth grade teaching Navajo 
immersion only, and another school that is English but it still 
has Navajo also as one of their subjects.
    So what they are shooting for is a school for Navajo from K 
through 12, so students can have a choice of learning our full 
language fluently and also English fluently so we can know both 
languages at the same time. I think that's the way it should 
be, start from infancy, from kindergarten to 12th grade, so you 
have both languages.
    Chairman McKeon. Thank you very much. Mr. Petri.
    Mr. Petri. One quick question. I know we are about at the 
end of the allotted time and it's fascinating. The actual 
question, I know Dr. Cornelius or Mr. Wilson alluded to it in 
your testimony. Of the 300 languages roughly Indian languages 
that existed in North America, it's down considerably, are they 
in archived? Are they being lost or are they being--even if not 
spoken are they being preserved so people can use them and 
bring them back as part of their culture or are they lost 
forever. Do you know what the situation is? This might be 
another area that we should be taking a good look at.
    Mr. Wilson. We did a couple surveys. One was funded by the 
Administration for Native Americans and we came up with that 
number after consulting with other people. When we say 300 
primary languages pre contact, that's just the core languages. 
It's not including the different dialects of those as well, 
which could be over 1,000 different ones. When we did the 
survey what we found, we didn't ask how many languages are 
still spoken per se. We did find that out. To the best of our 
abilities we came up with a little bit over 100 are still used 
in tribal communities. But out of that, the scary thing we 
found is only 20 of those languages, give or take a few, were 
spoken by children. So we looked at the health of the language 
isn't how many languages you have, it's at what age groups is 
it and the generations and that's what was really frightening 
to everybody, this crisis.
    When you talk about preservation, we understand that is a 
word that you can look at both ways. One is you preserve a 
language to revitalize it later, but what we have also seen is 
there's huge efforts on preserving recorded languages without 
reviving them and creating fluent speakers.
    So there's a repository set up here at the American Indian 
Art Institute. There's also the Smithsonian Museum has done a 
lot with the Library of Congress as well, and there's early 
ethnographers that worked on recording that, too, and there's 
been a lot of money through ANA that's gone into recording the 
language.
    But what we have also seen is this doesn't create fluent 
speakers. We don't want the languages in a jar on the shelf 
like a butterfly that's preserved or whatever. We want them 
used and that's what we really want.
    Ms. Cornelius. They say native peoples are the most studied 
peoples on the face of the earth and we are. Our language has 
been--in the 1930's through WK Project they first recorded our 
language and linguists created a writing system for it. In the 
1970's they took those tons of documents and started to 
translate them, so we have them in Oneida, and English 
underneath the Oneida, and then the English. They recorded 
those. So those were sitting in a box of reel-to-reels and 
cassette tapes and it was like fingernails on a chalkboard to 
me that I knew they were deteriorating so I reassigned one of 
our young folks--not that young, he is about fifty--to archive 
these. So what he has done is gotten everything from that 
medium and now they are digitalized. I say that word carefully. 
I had to learn how to pronounce it.
    So we are making those steps but the bigger thing we had to 
do next is to put those--not only just preserved but put on a 
data base so anybody who wants to learn can go and find it on 
the data base. So we are applying for a grant for that, so I go 
back to grant writing after we are done with this.
    So yes, we are looking at that. Like Mr. Wilson said, all 
of those documents and the studies of us, all the linguistic 
things have not produced a fluent speaker, so we know those are 
a tool, but to me, to be able to find a cassette tape of my 
great grandma telling a story, to hear her voice doing that is 
just phenomenal. So we are preserving. What we are doing with 
the few elders we have left is getting them to tell stories and 
recording that. So there are a lot of materials available.
    Chairman McKeon. I think that's very important. That was 
one of the questions that I was wondering about, too, because 
if you got just one person left that can speak, I know you 
don't want it in a jar but better having it in a jar than 
nowhere and you need to do some intervention there to do that. 
Sounds like you are doing that.
    We have really come to the end, and I want to thank all of 
you. This has been most educational and most inspirational, I 
think, to hear your stories and most motivational, I think, to 
get us to do something.
    You know, in this country it's sad but it seems like we 
think that we are only capable of learning and speaking one 
language. I remember when I took Spanish in high school. It was 
kind of a waste of time because I didn't really learn Spanish. 
But in Europe they speak six, seven languages. They don't think 
anything of it. For some reason we never have, as a nation, 
several nations, have felt or been capable of learning more 
than one language. I think that's a deficiency in our 
educational process that needs to be looked at.
    Let me tell you, just in wrapping up just a little bit, 
about my family so you know that this is not something 
hopefully that I think that was mentioned, that you look at 
this a little skeptical that maybe this is a show that we are 
doing that we are not going to do anything after this. I want 
you to know my commitment to this.
    I have three grandsons that are one-eight Quapaw. They are 
struggling now learning English. I don't know if there is a 
Quapaw language because their father only learned, only is just 
now trying to engage and get back with his Indian heritage. 
They went to a pow wow--they live in Utah. They went to a pow 
wow down in Oklahoma. My daughter thought boy, these people are 
going to be so happy to see me. They didn't care about her. 
They were sure glad to see him and involved him in the tribal 
leadership. It's just a start for them to get back to that 
culture. So I have Indian grandchildren and I am proud of it 
and I am happy about it.
    When I was serving on my mission here in New Mexico, a lot 
of the families that we visited, and as I said, I was working 
with Latino people, a lot of the families would not teach their 
children Spanish because they said then they will have a accent 
and won't be able to get a job. Now it's very important to know 
Spanish and English and especially in California where I am 
from, and I'm sure it is here in New Mexico and Arizona and 
Texas and many other places throughout the country.
    It really saddens me to hear what the Nation has done, what 
this country has done to your nations with stopping you from 
learning the language. I am not concerned about Spanish. I am 
not concerned about French. There will be lots of people around 
the world speaking those languages. But I am concerned about 
losing your languages so I am committed to doing that.
    I think there are a lot of ways to learn language. You have 
mentioned you have to have somebody that knows teaching, not 
just the language, but how to teach the language. There's a 
difference. But, you know, I was in China and I saw millions of 
little Chinese kids that could speak Chinese. The problem is 
that only now the grandparents know, so that generation was 
skipped so we need to teach the children the language. I know 
that we have through the military, and I know the FBI has 
language training schools in Santa Barbara and other places 
around the country that are very, very proficient at teaching 
languages, so we need to reach out to them and find out some of 
those skills. I know our church has a great ability to teach 
languages. We have language training centers where we send our 
young people and they learn before they go to foreign countries 
to speak lots of languages. I know there's skills that they 
have to reach out to them to try to get all of those.
    This hearing, we very easily could have held this in 
Washington. That's where we hold most of our hearings. As you 
said, this is a momentous occasion to have this hearing here. 
It's at Heather's urging--Ms. Wilson's urging, her leadership, 
her work on the issue that we are here, and we will continue to 
look at her for continued leadership on this issue. She is not 
on the committee. However, I sat on Armed Services Committee 
with her for a long time, and I know what a tough proponent she 
is when she gets behind something, so I know that I will be 
hearing from her very often with this issue. I will be very 
supportive of all of that.
    So thank you for being here. Thank you for being here. Do 
you want the last word?
    Mr. Shije. I just want the record to let you know that I'm 
going to request testimony submittals from the 19 Pueblo 
Governors, too, to be a part of the record so you will be 
receiving those also, and also before we leave, because this is 
a forum that we are talking about language and cultural values, 
as Pueblo people, we started the meeting with the call of the 
spirits to give us the strength and wisdom to carry the meeting 
through. Now before we close we have to also release those 
spirits and send them on their way so they can take those 
messages back. So we will ask that you call on Governor Coriz 
when the time comes for him to give the closing.
    Chairman McKeon. I appreciate that. Thank you very much. We 
will hold the record open for you to--seven days? Fourteen days 
so you can add any additional comments. I hope that you will 
work with us as we go through the process. You gave some 
discussions today for changes in the legislation. That's the 
process that we work through, and we will continue to work on 
that. We have very little time left in the session. I can't 
promise we can get it done in this session, but we will do our 
best and see what we can do. Sometimes it's better not to hurry 
something, make mistakes. Sometimes we would drag things too 
long. So we will try to get a balance and get movement on this 
issue.
    Again, thank you all for being here, and for bearing with 
us and listening through this and with your suggestion, 
Governor, could we ask you to give us a benediction here and 
the hearing will be closed.
    Governor Coriz. Thank you. Congress and panelists, we were 
discussing how important it is that our child's early language 
had begun. One of the things as a traditional Pueblo, I think 
the early age where the child is being in the womb of the 
mother. That's the earliest part of the thing. I think if we 
are going to promote education, it has to begin from a good, 
positive, caring loving care that our Native people, that we 
need to carry forth at the earliest possible age in the 
mother's womb.
    When the child is born into this world he has to have love 
and care and the child has been loved by the mother when he 
comes into this world. Very innocent child born into this 
world. Thank you.
    [Benediction spoken in Native American language.]
    And have a good holiday.
    [Whereupon, at 4:40 p.m., the committee was adjourned.]
    [Additional testimony submitted for the record follow:]
    [The prepared statement of Ms. McCollum of Minnesota 
follows:]

Prepared Statement of Hon. Betty McCollum, a Representative in Congress 
                      From the State of Minnesota

    I regret that I cannot attend today's field hearing--``Recovery and 
Preservation of Native American Languages.'' There has long been an 
urgent need to recover and preserve Native American languages and to 
reaffirm the Federal government's commitment to strengthening Native 
American education, and today's hearing is an important step in 
reinvigorating the Federal government's partnership with Native people 
and communities.
    As a nation we must reaffirm our commitment to preserve, to honor, 
and to teach the living traditions, cultures, and languages of the 
First Americans who have and continue to contribute to the strength of 
our nation and communities as teachers, community leaders, business 
owners, artists, elected officials, and neighbors.
    The National Indian Education Association, which speaks on issues 
on behalf of Native Americans, continues to identify the recovery and 
preservation of Native languages as one of their highest priorities. I 
strongly support their efforts.
    As a country, I believe we have a moral obligation to live up to 
the commitment of the laws and executive orders that promise the 
incorporation of Native culture in education, such as Title VII. The 
facts cannot be ignored--decades of federal restrictions on the 
instruction and use of Native languages in everyday life led to a 
deliberate and regrettable decline in Native languages spoken. As a 
country we must commit the resources to recover and preserve Native 
languages and to ensure that Native students receive the unique 
cultural education, including language, promised to them.
    Unfortunately, if we continue down the path we are on--it is 
estimated that only twenty indigenous languages will be viable by 2050. 
This would be shameful.
    Within the state of Minnesota, there are two tribal nations--the 
Dakota Nation and the Ojibwe Nation with eleven reservations. Across 
these different reservations, language dialects vary. While much more 
can be done to strengthen these languages, the Dakota language is doing 
fairly well. In fact, there are significant numbers of elders teaching 
language to youth-especially in Head Start programs.
    But in Minnesota, it is only becoming more difficult to find elders 
to teach the Ojibwe language--the fourth most spoken Native language in 
North America, which has 10,000 speakers.
    Like in other parts of the nation, there are additional, smaller 
indigenous languages across the state of Minnesota--but the efforts to 
recover and preserve them have been difficult because the populations 
are so small.
    This cannot be the fate of any more indigenous languages.
    While Minnesota has a variety of language resources available at 
area colleges, schools and organizations, these learning arenas 
continue to need our support more than ever.
    In the urban areas of Minneapolis and St. Paul, American Indian 
language instruction and learning has been hindered due to the small 
and diverse number of tribes and languages represented in their 
community-but this should not hinder efforts to foster language 
preservation and revitalization. In fact, within the Minneapolis and 
St. Paul areas, community language tables are held and it is these 
types of efforts that must continue to be fostered and developed. These 
are the kinds of efforts that must be supported by the federal 
government. And Native Americans are right to request the help of 
Congress.
    Unfortunately, it appears that despite treaties and laws and 
executive orders that call for the preservation and incorporation of 
Native language and culture into education-we are living at a time when 
Native American languages and culture are being eroded and neglected.
    And, despite significant research that indicates Native children do 
better in all subjects when taught through the use of Native languages 
and culture-Title VII funding and other Indian education resources are 
being reduced or inappropriately assigned to Title I functions of the 
No Child Left Behind law.
    I am concerned about recent policies put forth by this 
Administration that have weakened Native education through the 
weakening of Title VII--which will negatively affect the preservation 
and recovery of Native languages and culture.
    Schools and Title VII administrations have felt pressure to focus 
Title VII resources-specifically set aside for Native children-on Title 
I goals-which have nothing to do with Native culture and language.
    Schools should be able to focus Title VII resources on Title VII 
goals-this funding should not be siphoned off and diverted to support 
the other goals of NCLB--especially at the expense of Native culture 
and the children set to inherit it.
    Native children are guaranteed the right to not only the highest 
quality education-but also a unique and culturally relevant education 
that includes Native language instruction.
    It is for these reasons that I joined with several of my colleagues 
in sending a letter to the Secretary of Education requesting a 
clarification of the Department of Education's policy towards Title 
VII.
    The response I received did not address the concerns I heard from 
the Native community--and I will continue to press the Bush 
Administration to ensure the unique and high quality educational 
opportunities Native children deserve-and have been promised.
    I submit for the record both the letter to the Secretary and her 
response.
    I commend the work of those who refuse to allow Native language and 
culture to disappear and who instead work to strengthen and preserve 
Native languages-such as the National Indian Education Association. 
Your efforts are important and necessary and I look forward to 
continued work with you on this critical issue.
                                 ______
                                 
    [The prepared statement of Dr. Gregory follows:]

     Prepared Statement of Dr. George Ann Gregory, Choctaw/Cherokee

    I grew up without the benefit of either my mother or my father's 
Native languages. Not having those languages breaks me from the past of 
my peoples. Language represents reality, so I do not have that reality. 
And this is a loss to me. It is a loss to my peoples. It is a loss to 
this nation. This country is losing its original languages and being 
completely supplanted by the colonial language of English. I would like 
to note that there has never been a time in history when 
multilingualism was more needed, and the US is losing that ability.
    A year ago in May, I returned from New Zealand, where I spent four 
months as a Fulbright scholar studying Maori language revitalization. 
The Maori have been working on this for about 30 years now. Thirty 
years ago, the Maori language was spoken primarily by people over 50 
years of age. It was a dying language. Today, there are young Maori 
entering graduate school, who started off in the immersion kohanga reo 
(language nests) and English is their Second Language: They are able to 
function academically in two languages now. As in the US, English is in 
little danger of disappearing. It is everywhere.
    The revitalization of the Maori language has gone hand-in-hand with 
economic and educational development by Maori communities. By that I 
mean that regaining their own language has given many Maori the self-
confidence to achieve more in both their own traditions and in the 
current technological, economic development of New Zealand itself. It 
has improved their citizenship and their contribution to both ways of 
life. Additionally, the non-Maori, the Pakeha, have also benefited 
because as one group of people advances so do all groups. Many non-
Maori are learning te reo Maori (the language) and embracing it 
alongside English.
    What could be more American than speaking an American language? 
(English, as you know, is the language of the UK and its former 
colonies.) US culture is a blend of many contributions by many groups, 
but at its core lie the indigenous peoples of the US. This is its 
foundation. Certainly better authors and authorities than I have 
pointed this out. Our brand of ``democracy'' is truly American: It 
comes by way of the Iroquois Confederacy. It strikes me as particularly 
unkind and ungrateful not to help the original peoples of this nation, 
who have contributed so greatly to its formation (through land cession 
is nothing else), maintain their own identities through language. As we 
live in a monetary age, this support should come in the form of 
increasing grants to Native communities for maintaining and 
revitalizing their own languages.
    Yakoke and wado (thanks).
                                 ______
                                 
    [The prepared statement of Ms. Wacondo follows:]

 Prepared Statement of Elizabeth Wacondo, Librarian, the Laguna Public 
                       Library, Pueblo of Laguna

    Many people my age have spoken the language fluently, but as the 
years have gone by our younger generation do not speak the language, 
because we are going into the modern age. Our young parents do not 
speak the language so they can not teach their children.
    I believe that it is in the home where we need to teach our 
siblings. I myself was taught the language by my grandparents. I was 
also taught that while we are at the table eating this is the time when 
we need to teach our young children; in order for them to swallow the 
words and meanings we are teaching them as well as manners.
    I grew up with parents who spoke the language and who taught me 
tales, that someday I might teach our young people. The tales that I 
was taught were winter tales, because we did not have electricity, no 
radios or television. When our school homework was done we would sit on 
the floor on sheep pelts, maybe in front of the fire place; if we had 
one. And one of the elders' would teach us and tell these tales. I have 
had ``Winter Tales'' book published.
    I am sure the Laguna Schools have gotten Grants to pay for someone 
to teach our young children the language.
    I have been the Director and Solo Librarian for Pueblo of Laguna 
for 31 years.
                                 ______
                                 
    [The prepared statement of Eddie Tso follows:]

   Prepared Statement of Eddie Tso, Program Director, Office of Dine 
        Culture, Department of Dine Education, the Navajo Nation

Program
    The Office of Dine Culture, Language & Community Services 
coordinates with teachers, schools and communities within the three 
state area of NM, UT and AZ to develop and implement Dine (Navajo) 
Culture Standards and Curriculum; Dine (Navajo) Language Standards; 
Curriculum guide for Dine (Navajo) Government and History; Dine 
(Navajo) Language Assessment Instrument; and Dine (Navajo) language 
Certification with New Mexico Department of Public Education and Utah 
State Department of Education.
    The Navajo Nation on July 22, 2005 enacted the Navajo Sovereignty 
in Education Act of 2005, amending Title 10 of the Navajo Nation Code 
to establish the Navajo Nation Department of Dine Education to confirm 
the commitment of the Navajo Nation to the education of the Navajo 
People and provides a vehicle for implementation of specific Navajo 
language and culture policies for the schools serving children on the 
Navajo Nation.
Proposed Amendments to the Native American Language Act: 
    1. Native Americans should be recognized as the owner of their 
Language. With this ownership, Native Americans should partner towards 
the goal of strengthening, revitalizing, or reestablishing a American 
language and culture as a living language and culture of daily life. 
(Native Americans are not recognized nor involve in these plans and 
development. Native government must be eligible to be involved in the 
revitalization of language and culture)
    2. Applicants shall inform, coordinate and collaborate with Native 
Governments, Native Education Committees, Native Boards of Education 
and/or Native Department of Education in applying, implementing, 
monitoring, reporting, and the sharing of project information, etc. 
(Too often, schools will not involved Native organizations on grants or 
plans on Native language and culture).
    3. Applicants should inform, coordinate and collaborate with other 
schools on their application. (Too often, schools receiving these 
grants don't want to share information, and best practices; and schools 
claim ownership of the materials developed).
    4. Applicants who are considered as demonstration programs should 
become models for the Native area or reservation by informing and 
sharing their plans and successes with schools and Native governments. 
(Too often, demonstration program claim ownership on their language and 
culture projects and do not involve Native communities and government)
    5. Applicants should be required to spend their award funds on 
specific Native Language and culture programs, not other school 
projects. (Too often, schools may use project funding to accommodate 
other needs)
    6. Federal and State policies on Native American Education should 
be changed to incorporate Native teaching on culture, language, 
government and history in school curricula. (No Child Left Behind 
advocates English Only and Arizona Proposition 203 is an English Only 
proposition, not Native American language, culture, government or 
history)
    7. Federal and State policies on education should be required that 
do not let local School Superintendent dictate their own policies and 
plans, leaving out the strengthening, revitalizing, or reestablishing 
of Native America language and culture. (Too often, School 
Superintendents leave out the teaching of Native language, culture, 
government and history)
    8. The law should support the funding of the Institute of American 
Indian Education on the UMN campus to provide technical assistance to 
tribes and pueblos in strengthening, revitalizing, or reestablishing 
Native American language and culture. (Tribes and Pueblos need 
technical assistance in development of curriculum, policies, research, 
etc., as related to language and culture revitalization)
                                 ______
                                 
    [Native American Review article follows:]

  Native American Review Article by Jon Reyhner, Ed.D., Professor of 
                Education, Northern Arizona University*

    The National Indian Education Association and National Congress of 
American Indians are currently supporting legislation to help revive 
tribal languages in immersion programs where in the primary grades 
students are taught all day in their tribal language. Their goal is to 
stem the rapidly accelerating decline in the number of speakers of 
tribal languages, which some conservative commentators see as a good 
thing. John J. Miller, author of The Unmaking of Americans: How 
Multiculturalism Has Undermined America's Assimilation Ethic, declared 
in The Wall Street Journal in 2002 that the increasing pace of language 
death is ``a trend that is arguably worth celebrating [because] age-old 
obstacles to communication are collapsing'' and primitive societies are 
being brought into the modern world.''
---------------------------------------------------------------------------
    *Note: This article from ``Native American Review'' is adapted from 
a presentation on Nurturing Native Languages and Cultures in Schools 
the author gave at the National Indian School Board Association's 
Summer Institute in Denver in July 2006.
---------------------------------------------------------------------------
    However, there are a number of reasons why all Americans, even 
conservatives, should support Native language revitalization. 
Conservatives like Arizona State Representative J.D. Hayworth promote 
assimilation into American society, including speaking only English, as 
the solution to America's social problems. However, assimilation today 
for teenagers, whether it is for recent immigrants or American Indians, 
is all too likely to mean a television dominated world that is selfish, 
pleasure-seeking, and fattening.
    The larger school-based immersion efforts to revitalize indigenous 
languages in New Zealand and Hawai'i and smaller efforts in the 
Blackfeet, Navajo, Mohawk and other Indian Nations are showing that 
language revitalization can help heal the wounds of colonialism and 
improve students' behavior and academic success.
    There is a need for healing because through most of the history of 
the United States the Indian way of life was considered ``savage'' and 
something to be replaced by English speaking civilization that would 
unite this country. As Joy Harjo (Muscogee Creek) notes, ``colonization 
teaches us to hate ourselves. We are told that we are nothing until we 
adopt the ways of the colonizer, till we become the colonizer.'' But 
even then Native people are often not accepted--a brown skin can't be 
washed off. For most of history, schooling systematically devalued 
being Indian.
    In 1869 after the Civil War (America's bloodiest war where both the 
North and South spoke English), President Ulysses S. Grant's Indian 
Peace Commissioners concluded that language differences led to 
misunderstandings and that ``by educating the children of these tribes 
in the English language these differences would have disappeared, and 
civilization would have followed at once.'' Teacher and Indian agent 
Albert H. Kneale in the early twentieth century found that ``the Indian 
Bureau, at that time, went on the assumption that any Indian custom 
was, per se, objectionable, whereas the customs of whites were the ways 
of civilization.'' As was noted on a sign at the entrance of the Ganado 
Mission School in the Navajo Nation in the 1950s, ``tradition'' was 
seen as ``the enemy of progress.''
    Well-meaning ``friends of the Indians'' did not realize the damage 
that assimilationist education could inflict on Indian people. In 1975, 
Dillon Platero, the first director of the Navajo Division of Education, 
described the experience of ``Kee,'' a typical Navajo student: ``Kee 
was sent to boarding school as a child where--as was the practice--he 
was punished for speaking Navajo. Since he was only allowed to return 
home during Christmas and summer, he lost contact with his family. Kee 
withdrew from both the White and Navajo worlds as he grew older because 
he could not comfortably communicate in either language. He became one 
of the many thousand Navajos who were non-lingual--a man without a 
language. By the time he was 16, Kee was an alcoholic, uneducated, and 
despondent--without identity.'' Students who are not embedded in their 
traditional values are only too likely in modern America to pick up a 
drug-filled identity of consumerism, consumption, competition, 
comparison, and conformity.
    A second reason to support Native language immersion is to improve 
students' behavior. In 1998 the National Research Council reported that 
immigrant youth tend to be healthier than their counterparts from 
nonimmigrant families. It found that the longer immigrant youth are in 
the U.S., the poorer their overall physical and psychological health. 
The more ``Americanized'' they became the more likely they were to 
engage in risky behaviors such as substance abuse, unprotected sex, and 
delinquency. There is evidence the same is true for Native youth, with 
those being less assimilated into the dominant culture doing better in 
school and in life.
    The positive effects of Native language and culture can be found in 
schools that have given strong Native language support. Agnes and Wayne 
Holm reported that in the 1970s the all-Navajo Rock Point Community 
School Board felt ``that it was the breakdown of a working knowledge of 
Navajo kinship that caused much of what they perceived as 
inappropriate, un-Navajo, behavior; the way back, they felt was to 
teach students that system.'' Their answer was to establish a bilingual 
education program with an extensive Navajo Social Studies component 
that included the theory of Navajo kinship.
    The Rock Point Program was modified and is continued today in the 
Window Rock Public School's Navajo Immersion School. Marie Arviso and 
Wayne Holm found there that ``More-traditional Navajo expectations of 
children were that they would work hard and act responsibly--in 
adultlike ways. Anglos [``white'' people] tend to expect children to 
act in more childlike ways. * * * More-traditional parents tend to 
perceive such [childlike] behavior as self-indulgent and irresponsible. 
At worst, children come to exploit the gap between parental and teacher 
expectations.'' In the Navajo immersion school students tended to act 
more responsibly as that was the behavior that was taught and expected.
    A researcher for Arizona State University's Native Educators 
Research Project observed at Window Rock that, ``Navajo values are 
embedded in the classroom.'' A parent, ``noticed a lot of differences 
compared to the other students who aren't in the immersion program. 
[The immersion students] seem more disciplined and have a lot more 
respect for older [people], well anyone, like teachers. They 
communicate better with their grandparents, their uncles. * * * [It] 
makes them more mature and more respectful. I see other kids and they 
just run around crazy.''
    Navajo elder and statesman Jack Jackson noted at the 2004 BIA 
Office of Indian Education Programs' third annual Language and Culture 
Preservation Conference in Albuquerque how at Dine College they are 
``in a search to create our future based on our past.'' Jackson 
emphasizes the importance of teaching Navajos their philosophy of 
``Ke,'' being a balanced person. This involves examining ``beauty 
before me [where am I going?], beauty behind me [where did I come 
from?], beauty underneath [my relation to mother earth], beauty above, 
and beauty around'' with the outcome of becoming a ``balanced person.''
    A third reason to support Native language immersion schools is to 
improve students' academic success. Reviews of research on fluent 
bilinguals indicate they have some cognitive advantages over 
monolinguals and are thus more intelligent (See for example Colin 
Baker's Foundations of Bilingual Education and Bilingualism, 
Multilingual Matters, 2006).
    A conflict between a student's home culture and the school culture 
can lead to academic problems for students. Mick Fedullo in Light of 
the Feather Pathways Through Contemporary Indian America (1992) 
illustrates a case of cultural conflict with a quote from an Apache 
elder who stated that students' parents had, ``been to school in their 
day, and what that usually meant was a bad BIA boarding school. And all 
they remember about school is that there were all these Anglos trying 
to make them forget they were Apaches; trying to make them turn against 
their parents, telling them that Indian ways were evil.'' Instead of 
assimilating, ``a lot of those kids came to believe that their teachers 
were the evil ones, and so anything that had to do with ``education'' 
was also evil--like books. Those kids came back to the reservation, got 
married, and had their own kids. And now they don't want anything to do 
with the white man's education. The only reason they send their kids to 
school is because it's the law. But they tell their kids not to take 
school seriously. So, to them, printed stuff is white-man stuff.''
    Unfortunately, efforts to reduce the cultural divide between 
schools and Indian homes is being hurt today by the No Child Left 
Behind Act of 2001 that is driving education today in America. Its 
``Reading First'' approach to teaching reading is just one example. 
Bruno Bettelheim and Karen Zelan in their book On Learning to Read 
write, ``If, rather than concentrating on developing reading skills, 
educational efforts from the very beginning were concentrated on 
developing the desire to become literate--essentially and inner 
attitude to reading--then the final result might be that a much larger 
segment of the adult population would be literate. In our present 
situation, most adults are able to read but see little purpose in 
reading, beyond gaining some specific information in which they are 
interested or as a means for killing time through some trite 
diversion.''
    While it is rightly pointed out by critics of the ``Whole 
Language'' approach to teaching reading that this inner attitude'' is 
not enough to produce good readers, it is a consideration that teachers 
would do well not to forget as they teach reading skills. As Jonathan 
Kozel pointed out at the National Indian School Board Association's 
2006 Summer Institute, the US Department of Education's ``Reading 
First'' program that emphasizes phonics first tends to put reading 
comprehension last, and I would add pretty much ignores student 
motivation.
    Student motivation is critical for their success. Nineteenth 
Century missionary Stephen R. Riggs who in 1852 published a Grammar and 
Dictionary of the Dakota Language found teaching English ``to be very 
difficult and not producing much apparent fruit.'' It was not the 
students' lack of ability that prevented them from learning English, 
but rather their unwillingness. ``Teaching Dakota was a different 
thing. It was their own language.'' Giving Indian students some choices 
about what they learn and curricular content that reinforces their 
Native identity helps them succeed in school.
    As Indian languages are forgotten along with the values that 
allowed Indian people to survive for thousands of years, Indian people 
lose a critical foundation to build healthy lives around. As Mary 
Smith, the last speaker of her Native Eyak language, ``It's sad to be 
the last speaker of your language. Please, turn back to your own and 
learn your language so you won't be alone like me. Go to the young 
people. Let go of the hate in your hearts. Love and respect yourselves 
first. Elders please give them courage and they will never be alone. 
Help our people to understand their identity. We need to publish 
materials for our people. To educate the white people to us and for 
indigenous people.''
    University of California Professor Leanne Hinton maintains, 
``Believing in the language brings the generations together. * * * If 
there're any seeds left, there's an opportunity to grow.'' It is not 
just the language that gets revitalized in exemplary immersion 
programs, it is the values that have given Indian Nations the strength 
to survive five centuries of oppression.
                                 ______
                                 
    [The prepared statement of the Washington State Tribal 
Leader Congress follows:]

 Prepared Statement of the Washington State Tribal Leader Congress on 
  Education on Recovery and Preservation of Native American Languages

    Washington State Tribes reaffirm the sovereignty of Federally 
Recognized Tribal Governments in all areas, particularly in the 
transmission of native language and culture. Tribal Sovereignty 
requires that individual Tribal governments protect and perpetuate 
their native languages and cultures in a manner that honors the 
integrity of the original teachings. The Tribes acknowledge the 
considerable educational expertise, resources, and responsibilities of 
the United States Government, State legislatures, and local school 
boards in providing a meaningful education for all children. We are 
enthusiastic about building co-governance structures with federal, 
state, and local jurisdictions; however, the final responsibility for 
the education of Tribal members resides with Tribal governments.
    In response to HR 4766 (funding for Tribal Immersion Programs), the 
Washington State Tribal Leader Congress on Education strongly supports 
the allocation of federal dollars to fund the revitalization of Native 
Language and the expansion of Native Language Programs. The Federal 
Government has treaty and trust responsibilities to fund education for 
our children. Allocating Federal dollars for language revitalization 
and program expansion honors this responsibility.
    At the same time, we do not support mandates placed on the Tribes 
by the Federal Government or its agencies that undermine the 
sovereignty of Tribal governments in educating their Tribal members.
    <bullet> HR 4766 places such mandates on Tribes by requiring 
specific methodology, contact hours, student-parent participation 
levels and outcomes, etc. as prerequisites for funding. With these 
eligibility requirements, HR 4766 fails to recognize the Tribe's 
expertise in transmitting its own language and culture and compromises 
the Tribal government's sovereignty in education.
    <bullet> HR 4766 also places the responsibility for the evaluation 
of Tribal Immersion Programs with a major US University. In actuality, 
the final responsibility for program evaluation and success resides 
with the individual Tribal governments.
    The Tribes are committed to high quality standards in all education 
programs and most emphatically in the transmission of language and 
culture. Tribal Governments want high quality standards for funding 
requirements, program evaluation, and program implementation, including 
such areas as curriculum development, pedagogy, and teacher training 
and certification. However, the Tribes themselves determine the 
standards that will impact the education of Tribal members.
    The goal of the Tribal Leader Congress is to work with federal law 
makers and the Department of Education to craft legislation that brings 
new funding streams to culture and language education while utilizing 
Tribal expertise and respecting Tribal sovereignty. We also look 
forward to working together with government and other relevant 
organizations, such as research universities, in implementing language 
programs, evaluating these programs, and creating the requirements for 
federal funding.
    The Washington State Tribal Leaders Congress on Education is a 
positive model of how Tribes, individually and collectively, can work 
with lawmakers, agencies, universities, local school districts, and the 
community to build co-governance in education and create language and 
culture legislation to benefit all children.
    Thank you very much for your leadership in bringing funding to the 
revitalization of our sacred languages.
                                 ______
                                 
    [The prepared statement of Dr. Cross-Maple follows:]
                         Indian Education Division,
                    New Mexico Public Education Department,
                                                   August 31, 2006.

                   Native Language Initiatives Update

Introduction
    The New Mexico State Legislature enacted the Indian Education Act 
in 2003. The purpose of the Act is to ensure equitable and culturally 
relevant learning environments for Native American students in New 
Mexico public schools through the study, development and implementation 
of practices that positively affect educational success. The Act, also 
sought to develop strategies for ensuring the maintenance of Native 
languages through partnerships with tribes for developing tribal 
standards and criteria for the certification of Native teachers to 
teach Native languages in the public schools.
Maintenance of Native Languages
    As part of implementing the Act, the Indian Education Division 
(IED) of the New Mexico Public Education Department (NMPED) has:
    <bullet> developed Joint Powers Agreements with tribes and pueblos 
to create tribal and pueblo standards and criteria for licensing Native 
American language teachers; and
    <bullet> provided funding to tribes and pueblos to develop native 
language instruction and materials for their community, using various 
language models for development of native language.
Successes
    In 2005-2006, the IED secured the first-ever Joint Powers 
Agreements (JPAs) with nine New Mexico Indian tribes and pueblos to 
assist them in developing tribal standards and criteria for licensing 
Native American language teachers, and to implement revitalization and 
preservation of native language programs in their communities. The nine 
JPAs are with: Jemez Pueblo, Acoma Pueblo, San Felipe Pueblo, Santa 
Clara Pueblo, Pojoaque Pueblo, Zia Pueblo, Mescalero Apache Tribe, 
Cochiti Pueblo, and Laguna Pueblo.
    For 2006-2007, thirteen JPA's are either continuing or in process 
with Ohkay Owingeh, Nambe Pueblo, the Navajo Nation, Santa Ana Pueblo, 
Santo Domingo Tribe, Jemez Pueblo, Acoma Pueblo, San Felipe Pueblo, 
Santa Clara Pueblo, Pojoaque Pueblo, Mescalero Apache Tribe, Cochiti 
Pueblo and Laguna Pueblo.
    Currently, 10 Memorandum of Agreements (MOAs) are signed between 
the NMPED and tribes and pueblos regarding Native American Language 
Certification. The ten are with: Jicarilla Apache, Santa Clara, Acoma, 
Laguna, Zuni, Navajo Nation, Santo Domingo, Ohkay Owingeh, Mescalero, 
and Santa Ana. These tribes have completed or begun the development of 
their tribal standards and native language teacher certification 
criteria and process. As a result, there are now 69 native language 
teachers who are certified by the New Mexico Public Education 
Department to teach in the native languages.
Support of HR 4766
    The NMPED supports the passage of HR 4766 to provide additional 
funds for tribes to support their efforts in maintaining their native 
languages. Resources are needed for the development of instructional 
materials and language instruction by licensed native teachers both in 
schools where their children attend each day and in their own 
communities.

                                 <all>

</pre></body></html>
